<html>
<title> - H.R. 3937, H.R. 4882, H.R. 4883, H.R. 4966, AND OVERSIGHT HEARING ON THE NATIONAL COASTAL AND OCEAN SERVICE AUTHORIZATION ACT; THE NATIONAL MARINE FISHERIES SERVICE AUTHORIZATION ACT; AND THE NATIONAL OCEANIC AND ATMOSPHERIC RESEARCH SERVICE AUTHORIZATION ACT.</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
 H.R. 3937, H.R. 4882, H.R. 4883, H.R. 4966, AND OVERSIGHT HEARING ON 
THE NATIONAL COASTAL AND OCEAN SERVICE AUTHORIZATION ACT; THE NATIONAL 
 MARINE FISHERIES SERVICE AUTHORIZATION ACT; AND THE NATIONAL OCEANIC 
          AND ATMOSPHERIC RESEARCH SERVICE AUTHORIZATION ACT.

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              May 16, 2002

                               __________

                           Serial No. 107-118

                               __________

           Printed for the use of the Committee on Resources


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or

         Committee address: http://resourcescommittee.house.gov









                           U.S. GOVERNMENT PRINTING OFFICE
79-659                           WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                         COMMITTEE ON RESOURCES



                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
           ROBERT A. UNDERWOOD, Guam, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey,              Neil Abercrombie, Hawaii
  Vice Chairman                      Solomon P. Ortiz, Texas
Richard W. Pombo, California         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North 
    Carolina
                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 16, 2002.....................................     1

Statement of Members:
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     2
    Hunter, Hon. Duncan, a Representative in Congress from the 
      State of California........................................     4
        Prepared statement on H.R. 3937..........................     5
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey, Prepared statement of.............    17
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey, Prepared statement of.......................    19
    Underwood, Hon. Robert A., a Delegate in Congress from Guam, 
      Prepared statement of......................................    16

Statement of Witnesses:
    Dokter, Frank, President, Walter's Camp, Inc.................    29
        Prepared statement on H.R. 3937..........................    30
    Ellis, Mitchell R., Chief, Branch of Wildlife Resources, 
      National Wildlife Refuge System, Fish and Wildlife Service, 
      U.S. Department of the Interior............................    27
        Prepared statement on H.R. 3937..........................    28
    Gudes, Scott, Deputy Under Secretary for Oceans and 
      Atmosphere/Administrator, National Oceanic and Atmospheric 
      Administration, U.S. Department of Commerce................     2
        Prepared statement on NOAA Discussion Draft Bills........     8


 LEGISLATIVE HEARING ON H.R. 3937, A BILL TO REVOKE A PUBLIC LAND ORDER 
  WITH RESPECT TO CERTAIN PROPERTY ERRONEOUSLY INCLUDED IN THE CIBOLA 
NATIONAL WILDLIFE REFUGE IN CALIFORNIA; H.R. 4882, THE NATIONAL OCEANIC 
AND ATMOSPHERIC ADMINISTRATION COMMISSIONED OFFICERS ACT OF 2002; H.R. 
  4883, THE HYDROGRAPHIC SERVICES IMPROVEMENT ACT AMENDMENTS OF 2002; 
    H.R. 4966, THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION 
 AUTHORIZATION ACT; AND OVERSIGHT HEARING ON THE NATIONAL COASTAL AND 
OCEAN SERVICE AUTHORIZATION ACT; THE NATIONAL MARINE FISHERIES SERVICE 
 AUTHORIZATION ACT; AND THE NATIONAL OCEANIC AND ATMOSPHERIC RESEARCH 
                       SERVICE AUTHORIZATION ACT.

                              ----------                              


                         Thursday, May 16, 2002

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:05 p.m., in 
room 1334, Longworth House Office Building, Hon. Wayne T. 
Gilchrest [Chairman of the Subcommittee] presiding.

STATEMENT OF THE HONORABLE WAYNE T. GILCHREST, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. Good afternoon, everyone. The Committee will 
come to order. When Mr. Hunter comes in, we will probably--the 
order of the hearing was going to be Mr. Hunter and the issue 
dealing with California. Then we were going to go to the NOAA 
programs, but Mr. Hunter has been delayed, so we will start 
with you, Scott, and I will just submit my statement for the 
record and say that we look forward to your testimony, the 
myriad of programs that NOAA has under its jurisdiction. We are 
offering a legislative draft to sort of tighten that up a 
little bit and we would like your response to that as we move 
this through the process. We appreciate your attendance here 
this afternoon. I tried to put the word honorable in front of 
your name, but I guess I didn't get here in time.
    Mr. Gudes. I saw a letter like that once.
    Mr. Gilchrest. Thanks for coming this afternoon, Scott.

 Statement of The Honorable Wayne T. Gilchrest, Chairman, Subcommittee 
             on Fisheries Conservation, Wildlife and Oceans

    Today we will be hearing from witnesses regarding legislation to 
authorize National Oceanic and Atmospheric Administration programs, and 
H.R. 3937, a bill to resolve a boundary dispute involving the Cibola 
National Wildlife Refuge.
    The House Resources Committee has jurisdiction over many National 
Oceanic and Atmospheric Administration (NOAA) programs, including the 
agency's navigation services, fishery and coastal zone management, and 
oceanography programs. Some of these programs are authorized under 
program specific statutes, for instance, the National Marine 
Sanctuaries Act and the Magnuson-Stevens Fisheries Conservation and 
Management Act. Other programs rely on more general authorizations. No 
comprehensive authorization for these programs has been enacted since 
1992. The 1992 authorizations have expired and administrative 
reorganization plan under which the agency was established in 1970 has 
become outdated.
    The NOAA bills before the subcommittee today authorize agency 
programs under the jurisdiction of the Resources Committee that do not 
have other specific authorizations; reauthorize the Hydrographic 
Services Improvement Act; and update the statutory framework for NOAA's 
administrative structure, and for the NOAA Commissioned Officers Corps. 
I look forward to hearing the agency's views on this draft.
    The second part of our hearing is on H. R. 3937, a bill introduced 
by our colleague Duncan Hunter of California to resolve a boundary 
dispute involving the Cibola National Wildlife Refuge. This refuge was 
created to conserve migratory waterfowl and a variety of different 
types of habitat along the lower Colorado River.
    Specifically, H. R. 3937 will revoke a small portion of the Public 
Land Order that originally created Cibola in 1964. While the refuge is 
more than 17,000 acres, there is a small component of the refuge known 
as ``Walter's Camp''. This camp has provided recreational opportunities 
for thousands of visitors for over forty years. The concessionaire who 
operates this camp has consistently obtained the necessary concession 
permits from the Bureau of Land Management. The fundamental goals of 
this legislation are to remove 140 acres of land from the refuge, to 
end the confusion as to whom should have title to this property and to 
reaffirm that the management of the concession is the jurisdiction of 
the Bureau of Land Management. It is my understanding that both 
agencies strongly support this long overdue modification.
                                 ______
                                 

STATEMENT OF SCOTT GUDES, DEPUTY UNDER SECRETARY FOR OCEANS AND 
  ATMOSPHERE/ADMINISTRATOR, NATIONAL OCEANIC AND ATMOSPHERIC 
          ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Mr. Gudes. On behalf of Vice Admiral Conrad Lautenbacher 
and the 12,500 men and women at NOAA working across the 
country, I want to thank you, Mr. Chairman, and the 
Subcommittee for inviting me to speak today on the draft 
legislation that reauthorizes many of NOAA's ocean and coastal 
programs, in fact a good part of the agency. And, as always, 
Mr. Chairman, I would just like to thank you again, the 
Subcommittee, your staff, John Rayfield, Dave Jansen, for your 
very, very strong support of NOAA and our programs. It is 
something that I think those men and women across the country 
are very aware of and very appreciative and the expertise that 
is here on this Subcommittee.
    Mr. Chairman, as you can appreciate, there are 6, I think, 
separate bills that are before the Subcommittee today and I 
will speak to each briefly. But before I do that, I would like 
to mention 2 organizational and programmatic reviews of NOAA 
that are ongoing.
    First, coming to NOAA, our new administrator, Vice Admiral 
Conrad Lautenbacher, called for a bottom-up fundamental review 
of NOAA programs to be conducted by the agency called the NOAA 
Program Review, to take a look at our strengths and 
opportunities for improvement. He actually started off this 
process in a noble way by going out to all NOAA employees, 
asking them for their ideas, and then he asked me to put 
together a group of 16 NOAA executives that represented every 
part of the agency to work over 3 months and take a look at 
these different suggestions, add some of our own. We are really 
at a point where we are about to report back to the 
administrator or what we call the ``NOAA Executive Council,'' 
which represents the senior leadership, and then they will 
decide which ideas have merit and go forward and go to Commerce 
leadership, and then we would like to come back through OMB and 
to you, to show you the results or what we think would make 
good ideas to build a better NOAA. This is about where NOAA 
should be to remain the premier science and service and 
stewardship agency in 5 years and in 10 years and in 20 years 
to be what we really can be and continue to be as good as we 
want to be.
    Also, of course, as you know, there is the President's 
Ocean Commission, which continues to examine NOAA in part in 
terms of its reviews and, in fact, Vice Admiral Lautenbacher is 
not here today. He is actually out in the Pacific where he just 
testified to the Ocean Commission.
    Now I will address the 6 bills.
    First of all, the NOAA Act of 2002 updates the 
administrative structure of NOAA and authorizes 5 line offices, 
including OAMO, Aircraft Operations, officer corps that 
operates on NOAA ships and aircraft. The general bill 
authorizes--
    Mr. Gilchrest. Mr. Gudes, I think what we will do so we 
don't split your testimony and give you plenty of time so you 
don't feel like you are rushed, I think we will yield now to 
Congressman Hunter, and then we will come back to your 
testimony. Thank you for your indulgence.
    Mr. Hunter.
    Mr. Hunter. Mr. Chairman.
    Mr. Gilchrest. Front and center. You have the floor, 
Congressman Hunter. We appreciate you coming to the 
Subcommittee to testify on behalf of your legislation and your 
constituents, and I am supposed to ask you before you begin, 
did you give that fishing pole back that somebody lent you a 
couple of years ago?
    Mr. Hunter. Actually, Mr. Chairman, it was taken from me as 
I was leaving the Eastern Shore, Maryland. Actually somebody 
did steal my golf clubs out of my car, but they discovered, I 
am sure, when they got them that there is not a single club 
that matches another one. But that fishing pole is a very high 
class fishing pole and it will be returned.
    Mr. Gilchrest. But that is a sign of a good golfer.
    Mr. Hunter. I appreciate the kayak rescue also.H.R. 3937

   STATEMENT OF THE HON. DUNCAN HUNTER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Hunter. Mr. Chairman, thank you, and I want to thank 
Mr. Saxton, too, also, and staff for being here to listen to 
our request. I want to thank you for holding the hearing on 
H.R. 3937 and also want to thank my constituent, Mr. Frank 
Dokter, who is right here behind me. Mr. Dokter, if you could 
let them know who you are here, because he has made a long 
journey from California to testify today.
    And this legislation is necessary to right a past error 
that the Department of Interior made in designating one of our 
great refuges in California, the Cibola National Wildlife 
Refuge. Mr. Dokter and his family operate an area called 
Walter's Camp which is a BLM concession on land that is right 
next to the Lower Colorado River in Imperial County, 
California, and it is now within, as a result of the mistake, 
within the Cibola refuge, and it provides visitors with a very 
family friendly outdoors experience, including camping, hiking, 
canoeing, fishing, bird watching and rockhounding, not unlike 
your family residence on the Eastern Shore of Maryland. I guess 
the only thing you don't have is rockhounding, Mr. Chairman.
    In an increasingly crowded southern California, Mr. Dokter 
and his family have provided a welcome diversion from city life 
for a lot of our folks who are outdoor enthusiasts.
    Walter's Camp--and it was named after BLM was serving many 
years ago and it was a little piece of land, I guess, that 
initially had been homesteaded by a gentleman named Walter and 
they called it Walter's camp. It was first authorized in 1962.
    In August 1964, Public Land Order 3442 withdrew 16,000-plus 
acres along the Colorado River to create the Cibola Wildlife 
Refuge. The withdrawal erroneously included this 140.32 acre, 
Walter's Camp. But neither BLM nor Fish and Wildlife 
immediately recognized they made a mistake, and BLM continued 
to renew the original permit allowing the recreational 
concession use to continue unbroken until the present day. But 
because they have now discovered this mistake, BLM doesn't have 
the authority to continue to issue the concession contracts to 
Walter's Camp until this is pulled back out of the refuge. And 
the Fish and Wildlife Service and BLM agree that the land has, 
and I quote them, insignificant, if any, existing or potential 
wildlife habitat value. So in terms of this 16,000-acre refuge, 
it is not an important aspect of that refuge. And that is 
stated in a Department of Interior memo. And as a result of 
that, I introduced this legislation to correct this mistake and 
allow BLM to continue to operate to issue contracts to Walter's 
Camp.
    So I want to thank you on behalf of my constituent, Mr. 
Dokter, and also all the folks in southern California who 
have--find it tougher and tougher to kind of get away from the 
crowd. And, as you know, we have a huge population in the L.A. 
Basin and the so-called Inland Empire now and in the San Diego 
region. And this is one of the few places you can get away from 
the city and from the population centers. It has got nice 
recreational vehicle areas that--where you can put in for the 
night with your RV and you can camp and has fishing obviously 
right there on the river. It is just a grand place for folks 
who like the outdoors. And this is becoming kind of a 
disappearing resource in southern California, as you now know. 
There is a lot of competition now on the river, so it makes 
sense to restore this area that has been so heavily used by 
Californians in the past.
    [The prepared statement of Mr. Hunter follows:]

Statement of The Honorable Duncan Hunter, a Representative in Congress 
                      from the State of California

    Mr. Chairman, I would like to thank you and the Subcommittee 
members for holding this important hearing on H.R. 3937. I would also 
like to express my appreciation for my constituent, Mr. Frank Dokter, 
who made the long trip out here from California to testify today. This 
legislation is necessary to right a past error by the Department of 
Interior in designating the Cibola National Wildlife Refuge.
    Mr. Dokter and his family operate Walter's Camp, a Bureau of Land 
Management (BLM) concession on land near the lower Colorado River in 
Imperial County, California, near and within the Cibola Refuge. The 
facility provides visitors with a family-friendly outdoors experience, 
which includes camping, hiking, canoeing, fishing, birdwatching and 
rock-hounding. In an increasingly crowded Southern California, Mr. 
Dokter and his family have provided a welcome diversion from city life 
to many of the region's outdoors enthusiasts.
    Walter's Camp was first authorized in 1962, and in August 1964, 
Public Land Order 3442 withdrew 16,627 acres along the Colorado River 
to create the Refuge. The withdrawal erroneously included the 140.32 
acre Walter's Camp, but neither the BLM or the Fish and Wildlife 
Service immediately recognized the mistake. The BLM continued to renew 
the original permit, allowing the recreational concession use to 
continue unbroken until the present time. However, given the discovery 
of the past mistake, the BLM does not have the authority to continue 
issuing the concession contracts to Walter's Camp.
    The Fish and Wildlife Service and the BLM agree that the land has 
``insignificant, if any, existing...or potential...wildlife habitat 
value,'' as stated in a Department of Interior memo. Therefor, I have 
introduced H.R. 3937 to correct this mistake and allow the BLM to 
continue to issue contracts to Walter's Camp.
    Again, Mr. Chairman and Members of the Subcommittee, I offer my 
sincere recommendation that this land be taken out of the Cibola 
National Wildlife Refuge, and that Mr. Dokter's family be allowed to 
continue such a valuable and productive service to our region.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Hunter, and we appreciate the 
information you have given us here this afternoon, and I am 
sure your constituent appreciates the representation you have 
given him. And I think we would be wise to work with you to 
help facilitate this transfer for someone that loves the land 
such as yourself and the outdoors, and I am sure Mr. Dokter is 
the same way and would like to bring people to a better level 
of understanding about the beauty of nature and how to protect 
it, and what better place than at the doorstep of one of 
America's finest refuges. So thank you for your testimony.
    Mr. Hunter. Thank you, Mr. Chairman. And that fishing pole 
will be returned shortly.
    Mr. Gilchrest. Actually, it is probably something that I 
broke later.
    Mr. Hunter. I never lost it and it was a long time ago.
    Mr. Gilchrest. I am not sure if anybody else has questions 
for Mr. Hunter.
    Mr. Saxton. I don't have any questions. I would just like 
to note it appears to me that the Fish and Wildlife Service 
supports this transfer, and there is some language here in our 
notes that indicates all the reasons why they support Mr. 
Hunter's bill. So this should not be a problem.
    Mr. Hunter. Thank you very much. Mr. Faleomavaega.
    Mr. Faleomavaega. Always a pleasure to have the gentleman 
from California to testify before our Committee. Once we settle 
the Crusader issue, I will be pleased.
    Mr. Hunter. Unlike Crusader, I don't have to explain the 
memo that I had the day before saying I liked it and now the 
memo I have got saying I don't like it.
    Mr. Gilchrest. And I think at this point we will bring up 
Mr. Gudes from NOAA and then, Mr. Dokter, we will be with you 
in just a short time. Thank you.
    You may begin again.
    Mr. Gudes. I will pick up where I started talking about the 
6 bills, Mr. Chairman.
    The first act, the NOAA Act of 2002, updates the 
administrative structure of NOAA and authorizes our 5 line 
offices, including the Office of Marine Aviation Operations, 
which oversees NOAA's commissioned officer corps and operates 
our ships and aircraft. This general bill authorizes our 
ability to use cooperative agreements, grants, contracts to 
move funds which enable partnerships with other sectors to 
conduct research monitoring assessments.
    You have heard me say many times, and members of the 
Subcommittee, how important it is that at NOAA we believe so 
much in our partnerships and how much we work with universities 
and State and local governments and outside groups which is 
very key to our work.
    As you know, I think, members of the Subcommittee know, 
education is a big priority for us. And I believe very strongly 
that our mission includes creating the next generation of 
marine biologists, of meteorologists, of oceanographers, social 
scientists, coastal managers, ocean explorers. And NOAA 
supports, especially at our regional offices all over the 
country and local offices, we support the education outreach 
efforts. And I think there really does remain a need for an 
agencywide authority in education to develop an integrated and 
coordinated education strategy that will really help 
environmental literacy and really help us make a difference.
    And in the bills that are put forward today, I think in the 
research bill, there actually is an education authorization, 
and I would ask the Subcommittee to consider whether it could 
put an overall education authorization in the overall NOAA bill 
because I think it pertains to all of our components. I could 
give you great examples that work, National Weather Service, 
Fisheries Service.
    The second bill, National Coastal and Ocean Service 
Authorization Act, renames the National Ocean Service to give 
equal credit to our coastal management mission. This bill 
proposes to advance efforts to integrate existing and planned 
regional and coastal monitoring and observation systems into 
one national coastal marine observing system. NOAA is a full 
participant in the National Ocean Research Leadership Council 
and in the overall National Oceanographic Partnership Program, 
or NOPP, which will approve an interagency report for this 
ocean-observing system, ocean and coastal-observing system. 
Very supportive of these efforts. But I would like to defer 
comments on the actual organization of the observing system 
until this report has been considered by the administration and 
delivered to Congress.
    Third, or related to that, NOAA appreciates the 
Subcommittee's suggestion to specifically authorize the Coastal 
America Partnership Program. I think that Coastal America is an 
excellent example of NOAA coming together and working with 
other agencies and with the private sector to really 
effectively do habitat restoration and environmental work.
    Next, we appreciate the Subcommittee's reauthorization of 
the Hydrographic Service Improvements Act Amendments of 2002 
which allow NOAA to continue providing data that promotes safe, 
efficient maritime commerce and port security and represents 
the underpinnings, the real structure underneath our maritime 
transportation system.
    I think I have been before this Subcommittee a number of 
times and relayed to you the appreciation we have for the 
leadership that you have shown to really try to get NOAA to 
step up and do the job it should do in terms of reducing the 
backlog of hydrographic surveys and the products we provide for 
ports.
    There is one issue that I should raise to your attention, 
which has to do with slight changes to the quality assurance 
provisions. The way the bill is currently drafted, it would 
require NOAA to certify all hydrographic survey products. This 
raises issues of liability and impingement on the 
responsibilities of the U.S. Coast Guard with regard to 
navigational products. We have concern about litigation, I 
think, as this Subcommittee knows, in the fisheries and natural 
resource area. It seems sometimes like there is not much we can 
do without being in litigation and we wouldn't want to really 
look to our hydrographic work to be similar to that.
    Next, we appreciate the Subcommittee's enactment of the 
NOAA Commissioned Officers Act of 2002, which updates and 
consolidates the NOAA Corps. This legislation maintains the 
NOAA corps officers on an updated parity with the officers of 
other commissioned uniformed services. I think that the NOAA 
Corps, as I have said many times in front of our officers, is 
the Nation's smallest uniformed service, but I am extremely 
proud of them, and I often say they are the best of our 
uniformed services. They are all scientists. They work very 
hard. They are very dedicated. In fact, we are reminded each 
summer these are the individuals who fly into hurricanes, take 
our P3s. I had the opportunity last year to fly into Hurricane 
Michelle with Captain Tennison out of Tampa, and the dedication 
of these people is overwhelming.
    Tomorrow night we are, in fact, celebrating the 85th 
anniversary of Coast and Geodetic Survey which became actually 
the corps which led to finally in 1970 the NOAA Corps. Very 
proud of this.
    Finally, another bill, the National Oceanic and Atmospheric 
Research Services Act--I said there were 6 in the beginning. I 
think I had that right--which would strengthen the ability of 
NOAA research, our Office of Oceanic and Atmospheric Research, 
to perform its vital role in oceanic and atmospheric sciences, 
including climate, to benefit the Nation.
    The overall issue of science in NOAA, as well as the chief 
scientist of NOAA, the NOAA Science Advisory Board, will be 
among the areas that the program review that I talked about in 
the beginning we will be looking at and will be coming forward 
to our administrator.
    The Subcommittee's bill also updates and modernizes the 
authorization of climate research, a very topical area. This 
legislation establishes a formal Office of Climate Research 
that will support NOAA's sustained observing and monitoring 
capabilities to maintain our role as a leading science agency 
in climate research and services.
    I understand that the NOAA climate change report will be 
reviewed by the Science Committee within the next week as 
requested and we intend to try to get that up here to Members 
of Congress.
    Last, NOAA would like to work with the Subcommittee to 
ensure that the National Marine Fisheries Services 
Establishment Act enables NOAA to comprehensibly manage the 
Nation's living marine resources. In addition, of course, the 
managing commercial fisheries and recreational fisheries in a 
sustainable manner. It is very important to stipulate our--as I 
say, fiduciary responsibilities to protect its species to 
marine mammals, endangered and threatened species like sea 
turtles, for example, and to manage and conserve and restore 
habitat, very big issue to us, as you know, Mr. Chairman, as 
you know on the Eastern Shore and the work we have done in 
habitat restoration.
    NOAA appreciates this opportunity to provide initial 
comments on draft legislation. As I said at the beginning to 
all the members of the Subcommittee and the staff, we really do 
on behalf of all the men and women, on behalf of Vice Admiral 
Conrad Lautenbacher, we very much appreciate your interest in 
the agency and support for the agency and leadership on these 
issues. Thank you.
    [The prepared statement of Mr. Gudes follows:]

    Statement of Scott Gudes, Deputy Under Secretary for Oceans and 
   Atmosphere, National Oceanic and Atmospheric Administration, U.S. 
                         Department of Commerce

I. INTRODUCTION
    Thank you, Mr. Chairman and Members of the Subcommittee, for this 
opportunity to appear before you to testify on this draft legislation 
reauthorizing many of the ocean and coastal programs of the Department 
of Commerce's National Oceanic and Atmospheric Administration (NOAA). 
NOAA appreciates your continued support and interest in ensuring that 
it has the appropriate authorities and organization to address its 
ocean and coastal missions and responsibilities. In recent years, these 
programs have been the subject of many hearings before this 
Subcommittee. We note that the draft bills would authorize the National 
Oceanic and Atmospheric Administration, and four of its line offices, 
the Office of Oceanic and Atmospheric Research (OAR), the National 
Marine Fisheries Services (NMFS), the Office Marine and Aircraft 
Operations (OMAO), and the National Ocean Service (NOS), as well as the 
Hydrographic Services Improvement Act. These draft bills are being 
reviewed by the Department and the Department would appreciate the 
opportunity to provide written views on them prior to the markup.
    One apparent goal of the legislation is to clarify the roles and 
responsibilities of four NOAA line offices that have ocean and coastal 
responsibilities'the National Ocean Service, the Office of Marine and 
Aircraft Operations, the Office of Oceanic and Atmospheric Research, 
and the National Marine Fisheries Service. The thrust of the 
legislation is to better integrate existing activities and capabilities 
versus creating new programs, and to improve the scientific basis for 
decision-making. The Department and NOAA will continue working with the 
Subcommittee to ensure that the different bills appropriately address 
authorizations for each NOAA line office.
    The Administration is implementing the Oceans Act of 2000. The 
President appointed the Commission on Ocean Policy last summer. 
Currently, the Commission is in the midst of a series of nine regional 
fact-finding meetings. In fact, Vice Admiral Lautenbacher is presently 
testifying at an Oceans Commission Field Hearing. Commission Chairman, 
Admiral James D. Watkins, USN (Ret), has indicated his intent to 
complete the Commission's work and produce a final report on schedule a 
year from now.
    The Administration shares your interest in the relationship among 
these programs. Upon coming to NOAA, our Administrator, Vice Admiral 
Conrad C. Lautenbacher, Jr. USN (Ret.), called for a bottom-up, 
fundamental ``NOAA Program Review'' to examine the Agency's strengths 
and opportunities for improvement. In February, the Vice Admiral gave 
all NOAA employees an opportunity to suggest organizational, resource 
and business process changes. Since that time, I have been serving as 
chair of the NOAA Program Review Team, a group of sixteen NOAA 
Executives representing each line and staff office, supported by a 
staff of executive leadership candidates, and a contract facilitator. 
This team has discussed and debated a number of programmatic and 
organizational issues, employee suggestions and has put forward their 
own ideas for building a better NOAA to serve the American people.
    As you know, most of the new leadership for NOAA has now come on 
board. At this time, we are drafting the Program Review Team (PRT) 
report and will soon present this to the Administrator, Deputy 
Administrator and senior NOAA and Department of Commerce leadership for 
their consideration. While I cannot discuss the report prior to its 
review, approval and release, I should note that we have considered 
some of the issues raised by this Subcommittee and this legislation. 
NOAA leadership will, of course, return to discuss with you and the 
Committee staff relevant issues after the Administration has considered 
the PRT report. I hope that we can work with you on any reforms and 
legislative changes that may be required.
    I will provide some comments on the draft legislation here today. 
But, in part because of the review we are finalizing, I would also like 
to reserve the right to provide subsequent suggestions. I will keep the 
Subcommittee updated on the Administration's efforts and look forward 
to working with you as a bill is finalized. NOAA will continue working 
with the Subcommittee to ensure that authorizations for each NOAA 
office are appropriately addressed and are consistent with the 
President's Budget.
II. NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION AUTHORIZATION
    Generally NOAA supports the provisions in Title I, Section 101, 
outlining the activities NOAA is authorized to undertake in pursuit of 
its missions. As you know, NOAA's mission is twofold: to describe and 
predict changes in the earth's environment, and to conserve and manage 
wisely the Nation's coastal and marine resources and to provide 
sustainable economic opportunities. NOAA will also work with the 
Subcommittee to be sure we have the necessary funding authorities for 
grants, contracts, and other agreements. As these authorities are the 
tools we need to do our job, it is important that this section provides 
the necessary flexibility and efficiency.
III. THE NATIONAL COASTAL AND OCEAN SERVICE AUTHORIZATION ACT
    The National Coastal and Ocean Service Authorization Act renames 
NOAA's National Ocean Service (NOS) the National Coastal and Ocean 
Service--a change which better reflects the scope of NOS programs. NOS' 
mission is to be our principal line office for coastal stewardship 
through partnerships at all levels. NOS works to support and provide 
the science, information, management, and leadership necessary to 
balance the environmental and economic well-being of the Nation's 
coastal resources and communities. Programs like our NOS Coastal 
Services Center integrate NOAA programs and focus on program delivery 
for our customers--America's coastal managers and communities.
Section 3. National Coastal and Ocean Service
    As Section 3(b) indicates, NOS relies on a variety of underlying 
statutory authorities. Among these authorities are the Coastal Zone 
Management Act and the National Marine Sanctuaries Act, both of which 
support NOS' mission of managing and conserving the coastal and ocean 
resources upon which our Nation depends. Explicit in these management 
programs is the need for interagency cooperation and partnerships. NOS 
uses, promotes and relies upon partnerships with other agencies, 
States, local authorities, nongovernmental organizations, Federally 
recognized Indian tribes, academia and the private sector. Section 3(d) 
of the draft bill is intended to promote this partnership-based 
approach by providing the authority to use a variety of agreements, 
grants and other cooperative tools; however, we believe the section, as 
drafted, may require technical revision, and the Department will work 
with the Subcommittee on this language. NOAA suggests that the bill 
provide explicit authority for the Coastal America Partnership Program 
in this section of the bill. NOAA will continue to work with the 
Subcommittee to ensure that the grants and agreements language provides 
both the flexibility and the efficiency to carry out its work.
Section 4. Coastal Monitoring, Assessment, Observation, and Forecasting
    Throughout the Federal Government, as well as at the State and 
local level and academia, people are engaged in a wide variety of 
coastal monitoring and related activities. Much of the monitoring is 
regional and often is conducted or supported by a variety of Federal 
agencies ranging from NOAA, the U.S. Geological Survey and the Coast 
Guard to the National Science Foundation and the U.S. Navy. Data is 
gathered to meet the program requirements or the needs of a specific 
group of users.
    Currently there are efforts underway to coordinate these various 
systems into an Integrated and Sustained Coastal Ocean Observing 
System. This effort is part of the larger effort to develop the U.S. 
contribution to the Global Ocean Observing System (GOOS), which is 
international in scope. NOAA is a full participant in these efforts, 
which are being led by the National Ocean Research Leadership Council 
(NORLC) of which NOAA is a member. In March, a meeting was held in 
Virginia to further develop an implementation plan for the U.S. 
contributions to GOOS. The meeting was held in order to help coordinate 
a response to a Congressional request for various agencies to develop a 
plan for an ocean observing system. A paper is being prepared and 
should be presented to the NORLC for approval at the semiannual meeting 
on May 23. The Council intends to forward it to the White House Office 
of Science and Technology Policy (OSTP) for its final review before 
delivery to Congress.
    While supportive of the objectives of Section 4, I would like to 
defer comments on the specific organization of the coastal observing 
system until the OSTP/NORLC report is delivered to Congress.
Section 5: Coastal and Navigation Services
    This section on technical assistance provides the authority to 
train, educate and assist others through the transfer of technology and 
expertise in areas relating to ocean and coastal resource management.
Section 6: State of the Coast Report
    A periodic assessment would help identify new challenges and help 
monitor and assess the success of ongoing research and management 
efforts. NOAA will work with the Committee to determine the most 
effective means for achieving this objective.
IV. HYDROGRAPHIC SERVICE IMPROVEMENT AMENDMENTS
Overview
    The Administration supports reauthorization of the Hydrographic 
Services Improvement Act (HSIA) of 1998. NOAA's hydrographic services 
provide data that promote safe, efficient maritime commerce and port 
security. We do have several comments on some elements of the draft 
bill under consideration by the Subcommittee, relating to the 
implementation of a product quality assurance program, discussing the 
program mission, creating a permanent advisory panel, repealing of the 
Act of 1947 and authorizing appropriations.
Section 3: Quality Assurance Program
    The Hydrographic Services Improvement Act of 1998, Section 303 
(a)(3) directs NOAA to promulgate standards for hydrographic services 
provided by the Administration. Under Section 304, the Administrator 
then may, at his or her discretion, certify hydrographic products 
produced by non-Federal entities that meet those standards. Some 
examples of standards NOAA has promulgated or is promulgating include: 
International Hydrographic Organization (IHO) S-44 Standards for 
Hydrographic Surveys, the NOAA Hydrographic Manual and survey 
specifications in contracts for hydrographic surveys; Tide and Current 
Table production standards; the Nautical Charting Manual and IHO chart 
specifications; and recommended Standards for Electronic Chart Systems.
    The Quality Assurance section of the HSIA (Sec. 304) states that 
NOAA may develop and implement a quality assurance program to certify 
``hydrographic products,'' which the HSIA defines as ``any publicly or 
commercially available product produced by a non-Federal entity that 
includes or displays hydrographic data.'' The draft bill changes the 
term ``may'' to ``shall.'' The draft bill would require the Secretary 
to implement such a program within 2 years. For the following reasons, 
NOAA opposes this change.
    The language raises questions of liability. The proposed amendment 
would require NOAA certify any and all products on a basis that is 
equally available to all interested parties. Certification would imply 
that NOAA authorizes products for a specific use, i.e., for navigation. 
Therefore, if enacted and implemented, the Federal Government would 
likely be named as a party to litigation stemming from marine accidents 
in which one or more of the parties used a privately produced product 
that had been certified by NOAA. The HSIA attempts to limit exposure to 
liability at Section 304(c), which says the Federal Government shall 
``not be liable for any negligence by a person that produces'' 
certified products. But, parties could bring other causes of action 
against NOAA by claiming that NOAA itself was negligent by failing to 
discover the negligence of the party producing the hydrographic product 
prior to issuing a certification. NOAA's certification obligations are 
also unclear under the new language. NOAA may be under an obligation to 
identify all producers of hydrographic products and review them for 
accuracy prior to certifying them. This creates a potential litigation 
threat and could raise legal costs for the Department of Commerce.
    It may impinge on responsibilities of the U.S. Coast Guard. As 
noted, certification by NOAA would imply Federal approval of the 
product for use in navigation. This could lead to confusion because the 
Coast Guard, not NOAA, has responsibility for certifying aids to 
navigation (including NOAA charts) as meeting legal carriage 
requirements as established under international law and agreements. 
NOAA would coordinate the certification requirement very closely with 
the U.S. Coast Guard. NOAA recommends a thorough Coast Guard review of 
the quality assurance provisions before enactment.
    The HSIA at Section 304(b)(2) says NOAA can charge a fee for 
certification and that the fee can be set to cover the complete cost of 
the certification process, including administration. The proposed 
amendment states that implementation is ``subject to the availability 
of appropriations.'' It is unclear whether the program should be self 
sufficient or not. If mandated to implement the quality assurance 
program, the program should not be subsidized by taxpayers.
Section 4(a).--Mission
    In the mission statement, NOAA recommends including language to 
enable NOAA to support port security efforts. NOAA disagrees with the 
Subcommittee's proposed amendment which would permit the Administrator 
to use funds directly in support of two other NOAA missions, coastal 
and fishery management. As drafted, this could potentially divert 
resources from navigation requirements, such as reducing the survey 
backlog. Instead, NOAA recommends language that would direct the Agency 
to aggressively seek such ancillary uses of hydrographic data.
Section 5--Creating a Permanent Advisory Panel
    The creation of permanent advisory panels can provide some benefits 
for pressing public matters that require ongoing, frequent interaction 
among all interests. In this case, alternatives, such as studies by the 
National Research Council/National Academies of Science and routine 
outreach activities could be used to achieve similar results. Also, 
NOAA currently is an active participant in the interagency effort on 
the Marine Transportation System (MTS), which already has an advisory 
group. The MTS National Advisory Committee could create a working group 
to address issues related to hydrographic services. This may be better 
option because a working group could look beyond NOAA and examine all 
Federal agencies with navigation information responsibilities, 
including the Navy, the National Imagery and Mapping Agency (NIMA), the 
Army Corps of Engineers, and the Coast Guard.
Section 4(b)(2)--Repeal of the Act of 1947
    The draft bill repeals the 55 year old organic authority for NOAA's 
navigation and positioning programs, including surveying, mapping, 
charting, tides, currents and related activities. The goal of merging 
the 1947 Act and the HSIA has merit but, as proposed, the 1947 Act's 
permanent authorization for these programs is not sustained. The 
Administration understands that limiting authorizations of 
appropriations to a set number of years provides an impetus for 
Congress to maintain its oversight responsibilities. Programs relating 
directly to public safety, however, should not be subjected to the 
potential uncertainty that is created when such authorizations lapse. 
The Administration recommends that the following language be inserted 
at the end of Section 7:
        ``(5) If this Act is not reauthorized before Fiscal Year 2009, 
        such sums as necessary may be appropriated for the activities 
        authorized under this Act for each subsequent fiscal year 
        beginning in Fiscal Year 2009.''
Section 7: Authorization of Appropriations
    The proposed section authorizing appropriations should be 
consistent with the President's Fiscal Year 2003 budget request.
V. NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION COMMISSIONED 
        OFFICERS ACT OF 2002
    The availability of commissioned officers within this agency, in 
numbers sufficient to satisfy our operational requirements, is a matter 
of growing importance as we face new challenges. The Corps has proven 
its usefulness and I believe it has a continuing role to play as NOAA 
strives to reach its fullest potential in service to the Nation. The 
administration supports better alignment of the substance of current 
NOAA Corps personnel authorities and practices with similar authorities 
and practices, as now reflected in the revised and modernized Title 10 
of the United States Code. Much of the existing language for the NOAA 
Corps has as its source the Coast and Geodetic Survey Commissioned 
Officers Act of 1948, which served to provide parity with the other 
commissioned services. Little substantive modernization has occurred in 
the existing language over the years. Consolidation into one 
comprehensive Act of existing statutory language related to the NOAA 
Corps, language that is now scattered in the United States Code, would 
be helpful. We are reviewing the draft bill, including the statutory 
roles assigned to the President, and will provide written views as soon 
as the review is complete.
VI. THE NATIONAL OCEANIC AND ATMOSPHERIC RESEARCH SERVICE ACT
    I would like to next address the portion of the bill entitled, A 
National Oceanic and Atmospheric Research Service Act,@ which 
authorizes changes in what is now NOAA's Office of Oceanic and 
Atmospheric Research (OAR) or A NOAA <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a8facddbcdc9dacbc0e8">[email&#160;protected]</a> as it is often called. 
As an important and integral component of NOAA, NOAA Research explores 
the earth and atmosphere from the surface of the sun to the depths of 
the ocean. The NOAA Research role within the agency's larger mission is 
to provide research for products and services that describe and predict 
changes in the environment. Our results allow decision makers to make 
effective judgments in order to prevent the loss of human life and 
conserve and manage natural resources. The office conducts research in 
three major areas: atmosphere, climate, and ocean and coastal 
resources.
Section 4. Assistant Administrator for Oceanic and Atmospheric Research 
        and Chief Scientist
    This draft bill establishes the current NOAA OAR as the A National 
Oceanic and Atmospheric Research <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d685b3a4a0bfb5b396">[email&#160;protected]</a> within NOAA. The bill 
provides that the Assistant Administrator of the Service will serve an 
additional role as the Chief Scientist of NOAA. The section authorizes 
the outreach and education functions of the Service and provides a 
legislative mandate for the Office of Weather and Air Quality, an 
Office of Climate Research, and an Office of Oceanographic Research, 
Exploration, and Extension. It authorizes the National Undersea 
Research Program as well as authorizes the Assistant Administrator to 
oversee the National Sea Grant College Program. In respect to Sea 
Grant, the Administration recommends that the legislation be amended to 
be consistent with the President's Budget. The legislation formalizes 
the existing partnerships between NOAA Research and our university 
partners in 11 Joint Institutes. In addition, the legislation mandates 
that the Assistant Administrator/Chief Scientist will be selected for 
the position by virtue of education and scientific credentials and 
shall be the principal science advisor to the NOAA Administrator.
    Current legislative mandates for NOAA Research programs include the 
National Weather Service Organic Act of 1890 (15 U.S.C. ' 313), which 
provides a non-expiring authority for NOAA to monitor and record 
climatic conditions, and the 1990 Global Change Research Act (15 U.S.C. 
' 2921), which establishes the U.S. Global Change Research Program 
(USGCRP) aimed at understanding climate variability and predictability. 
The Non-indigenous Aquatic Nuisance Prevention and Control Act of 1990 
provides authority through 2002 for NOAA to fund research, prevention 
and control activities that relate to aquatic nuisance species. The 
National Sea Grant College Program Re-authorization Act of 1998 
authorizes the National Sea Grant College Program, the Knauss Fellows 
program, and research on invasive species, oyster disease, and harmful 
algal blooms through 2003. The Sea Grant program was originally 
authorized in 1966.
    Science and research at NOAA is one of the areas that has been 
discussed by the NOAA Program Review Team (PRT). The issue of NOAA 
research and science in support of our oceanic and atmospheric missions 
as well as the role of the Chief Scientist and the NOAA Science 
Advisory Board will be one of the areas that the PRT report will cover. 
As I noted earlier in my testimony, these are issues that will be 
discussed with the Administrator, Deputy Administrator and the senior 
leadership team in NOAA and the Department of Commerce.
Section 5. Office of Climate Research
    As you are aware, NOAA is well established as a leading science 
agency in climate research. Our research in this area has led to key 
accomplishments such as helping to identify the cause of the ozone hole 
in the Antarctic and providing a six-month warning on El Nino in 1997. 
The agency hears from stakeholders that the need is greater than ever 
for delivery of reliable climate information for enhanced planning and 
decision making. Providing reliable climate information is becoming 
increasingly important to the health, safety and vitality of the 
American people and to the national and global economies. The Federal 
Government should play a strong role in providing climate information 
that is crucial in helping our stakeholders manage their lives and 
businesses.
    To respond to the need for a coordinated Federal research effort 
and reliable climate information, the Administration has proposed 
restructuring climate programs within the Federal Government to better 
enable them to answer scientific questions that ultimately influence 
policy. Therefore, the White House has proposed that the government's 
climate change research be coordinated through two new offices, a 
Climate Change Science Program Office and a Climate Change Technology 
Program Office. The Assistant Secretary of Commerce for Oceans and 
Atmosphere will be designated to head the Climate Change Science 
Office. The Administration is seeking to address the concerns that the 
current U.S. Global Change Research Program overseen by seven Federal 
agencies may not be wide enough in scope to meet the constantly 
changing needs of climate research and may not provide sufficient 
accountability. Under the Administration proposal, a cabinet-level 
Committee on Climate Change Science and Technology Integration will 
make recommendations to the President on climate change issues. It is 
anticipated that NOAA will play a significant role in supporting this 
effort. We look forward to working with the Congress toward achieving 
our common goals in delivery of the world's best climate research.
Section 6. Office of Weather and Air Quality Research
    We are very appreciative of the support from Congress on the recent 
passage of the amendment to the energy legislation as passed in H.R. 4 
which provides NOAA with authority to issue air quality forecasts and 
regional warnings as a mission of the agency. Providing a mandate for 
NOAA's air quality research will be beneficial to the American public. 
The 1990 Clean Air Amendments define NOAA's role in providing the 
atmospheric chemistry and transport research that supports the efforts 
of the interagency National Acid Rain Precipitation Program. We look 
forward to working with the Committee to develop language that properly 
clarifies NOAA's role in air quality forecasting research.
Section 7 - 10. Oceanographic Research, Exploration, and Extension, 
        Ocean Exploration Program, and the National Undersea Research 
        Program
    The current version of the National Oceanic and Atmospheric 
Research Act establishes an Office of Oceanographic Research, Education 
and Extension and an Office of Ocean Exploration and the National 
Undersea Research Program (NURP). NOAA Research and NOAA Ocean Service 
manage an Office of Ocean Exploration (OE) that has a mission of 
searching and investigating the oceans for the purpose of discovery and 
the advancement of knowledge of the ocean's physical, chemical and 
biological environments, processes, characteristics, and resources. OE 
accomplishes this through interdisciplinary expeditions to unknown, or 
poorly known regions and through innovative experiments. The program 
advocates discovery-based science and collaboration between multiple 
partners and disciplines.
    As proposed, the authorization bill mandates an outreach and 
education function within NOAA Research. Education is an important 
component of NOAA's mission and of ensuring that future generations are 
prepared for the science needs of tomorrow. An education focus has been 
provided for some specific NOAA programs, but it would be preferable to 
have the agency-wide authority to develop an integrated and coordinated 
education strategy and program. To deliver information about our 
research effectively, a strong communications function is critical to 
success. If we are to promote scientific literacy and foster the next 
generation of world-class scientists to lead us into the 21st century, 
we need to strengthen our outreach and education capabilities and fully 
integrate communications into the management structure of the agency. 
We look forward to working with the Committee meet these objectives.
    An important feature of the authorization is that it supports the 
longstanding relationships NOAA has with university partners through 
the Joint Institutes. We believe that these partnerships are critical 
to achieving NOAA's research goals and that the relationships have been 
key to our successful track record in environmental research. We look 
forward to further solidifying those partnerships through a legislative 
mandate.
VII. NATIONAL MARINE FISHERIES SERVICES ESTABLISHMENT ACT
    NOAA appreciates the Subcommittee's efforts to formally authorize 
the National Marine Fisheries Service through this draft bill. It is 
important to note that this authorization would supplement NOAA's 
existing authority to manage the Nation's additional living marine 
resources, such as marine mammals and endangered or threatened species, 
among others. NOAA serves a significant role in protecting and managing 
these resources through its authority under the Marine Mammal 
Protection Act and the Endangered Species Act. These resources also 
include managing the effects to marine or anadromous species due to 
hydropower projects, and preservation of essential fish habitats. NOAA 
would also suggest that section 3(b)(1) be changed to reflect NOAA's 
present work which includes resources in state and international 
waters, such as marine mammals. For these resources, NOAA partners with 
states and other countries to ensure that the resources are managed in 
a comprehensive manner. NOAA would like to work with the Subcommittee 
to ensure these important authorities that will enable NOAA to 
comprehensively manage the Nation's living marine resources.
VIII. CONCLUSION
    NOAA appreciates this opportunity to provide initial comments on 
this draft legislation. NOAA commends the Subcommittee for recognizing 
the need to facilitate the integration of ongoing research and 
management programs and to focus national monitoring and observation 
efforts on meeting diverse national needs and requirements. We look 
forward to working with the Subcommittee as this legislation is 
introduced and makes its way through the legislative process.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Gudes. The bottom-up review 
that is being conducted by your agency now, is there a general 
timeframe when that will be concluded so that it will 
correspond to the movement of this authorization before it hits 
the House Floor so we can adopt some of those suggestions, 
changes?
    Mr. Gudes. What I can tell you is that the review has been 
completed, that we have been--we use some of our executive--it 
was an internal NOAA staff effort, leadership and staff, ideas 
that came from the people who work across the agency, across 
the country. I chaired it. We are moving forward next week to 
the Admiral and to the leadership panel. He is the boss. He 
works things as a corporate board. We are a bureau of the 
Department of Commerce. The next stage would be to go to the 
Secretary of Commerce level, and I would assume the Office of 
Management and Budget. I know the Admiral's disposition would 
be to have us come up and brief the Committee staff and the 
Committee. Unfortunately, I really can only tell you from the 
first part of my statement that I know when it is going to the 
NOAA board. I don't know how long it will take and how many 
issues will have to be reviewed. I don't know how long it will 
be able to bring it to you.
    Mr. Gilchrest. We would like to stay in touch with you on 
that so as you go through that process in the next, let us say, 
week or two, we might have some estimate as to the length of 
time that you can come to some conclusions and recommendations, 
so that perhaps in the process of--before we mark it up, I 
think it would be the best time in the Subcommittee, but any 
time it hits the House Floor. We would like to mark this bill 
up and get it signed this session and not wait another year on 
that. So any recommendations you can give us would be very 
helpful.
    Mr. Gudes, you mentioned a specific authorization for 
education. Would you have some language as to the direction 
that that would take? Is that the Ph.D. Level, undergraduate, 
graduate degree, public schools? How do you envision that?
    Mr. Gudes. In certain parts of NOAA like the marine 
sanctuary program, there are specific authorizations that say 
that education is part of our mission. As an agency we have 
gone far beyond that and we very much take to heart the 
effective way to do environmental education. There are specific 
programs, University of Maryland - Eastern Shore, we have 
worked on. I think where we are sort of lacking is an overall 
direction in terms of an organic act in terms of Congress that 
says what I said, that what our mission includes education as 
we interpret it, as we believe it. I think that all the above 
that you mentioned are true.
    We work at the university level very much and I find some 
of the most uplifting, impressive things that people in the 
agency do are with K through 12 at the local level. I could sit 
here and talk about a lot of these efforts.
    Mr. Gilchrest. So this is something that is being reviewed 
with that bottom-up review.
    Mr. Gudes. Yes, education is one of the areas we looked at. 
A lot of our employees had a lot of comments about it and it is 
something that I think most people across NOAA share. My new 
boss came from the Consortium for Oceanographic Research and 
Education. He is a big believer in educational outreach and 
what we can do, as I said, to help the next generation. It is 
an important issue for the country and an important issue for 
the agency in terms of where our workforce will come from.
    Mr. Gilchrest. In that bottom-up review, is there a good 
amount of time being spent with the National Marine Fisheries 
Service and the kinds of--all of the issues surrounding their 
relationship with the council's overcapitalization, ecosystem, 
management plans, the education of--a consortium with the 
industry to gather data to use their boats for data, those 
kinds of things?
    Mr. Gudes. We haven't had a number of those efforts 
ongoing. I know we are dealing with performance measures and 
workshops. We have been getting together with different 
constituents in terms of fisheries to look at some of the very 
issues you raised. You tend to look more corporately at NOAA 
overall in issues like science in NOAA that I mentioned before 
and that would relate to fisheries as it would to a number of 
areas where we conduct research. We didn't address as much some 
of the specific line office issues.
    Mr. Gilchrest. Just the basic structure of NOAA.
    Mr. Gudes. The admiral asked 3 basic questions and sent it 
out to the NOAA employees, and they kind of go like: ``Are we 
aligned correctly for our mission now and in the future?''
    Mr. Gilchrest. Just taking that one question as an example, 
coastal ocean-observing program, how is that aligned with the 
NMFS community to gather information to give to the councils to 
make their allocation decisions?
    Mr. Gudes. Well--
    Mr. Gilchrest. Or is that something --
    Mr. Gudes. We might address an issue like how many parts of 
NOAA do ocean observing, what sort of programs do they run, 
does that current structure make sense. Fisheries--as you know, 
biological and fishery observing centers like FOCI would be one 
of the types of systems that one would consider.
    As far as getting the second part of the question, getting 
the data to the council, I don't think that would be the type 
of issue that would be addressed.
    If I could, Mr. Chairman, just to make sure I finished. 
There were 3 fundamental questions the admiral asked the NOAA 
employees in the program review. One was, ``Are we aligned for 
our mission now and in the future?''
    Second, ``Are we resourced correctly?''
    And, third, ``Are our--this is my paraphrasing--our 
business processes as good as they could be? Are we doing 
business as efficiently as we could?'' And it is those sort of 
general parameters.
    And generally, NOAA corporate, if you will, if that--
    Mr. Gilchrest. And that is very good and we would like to--
as you come through with that kind of information, we would be 
very happy to participate in that process before we come up 
with our bills, especially the collaborative end of that, how 
do you synthesize all of that information, what is NOAA's 
mission, for example, it is a myriad of things. And there is 
climate studies going on out there that are going to impact and 
the specific purpose for the climate studies. Some of them, at 
any rate, is to see how they impact the fisheries. And there 
are observing tools out there for ocean currents and maybe a 
classic book could be written by an employee of NOAA as ocean 
currents and scallop larvae would be a best seller, I think. 
But to understand that ocean currents--where they carry the 
phytoplankton and where the larvae is carried pretty much 
determines how much fish you are going to have in a particular 
place.
    So if all of that information that is absorbed by the 
various entities of NOAA, that data is pulled together and 
synthesized along with the climate variabilities, we up here 
can get a better picture and determine policy. I just look 
forward to working with you on that bottom-up review.
    Mr. Gudes. Thank you, Mr. Chairman.
    Mr. Gilchrest. Mr. Underwood.
    Mr. Underwood. Thank you, Mr. Chairman, and I want to 
submit my opening statement for the record.
    Mr. Gilchrest. Without objection.
    [The prepared statement of Mr. Underwood follows:]

  Statement of The Honorable Robert Underwood, a Delegate in Congress 
                               from Guam

    Thank you Mr. Chairman. The programs and activities of the National 
Oceanic and Atmospheric Administration are of paramount interest to the 
members of this subcommittee.
    In this regard, I always welcome new opportunities to have 
representatives from NOAA come before the subcommittee to further 
enlighten us about NOAA's essential role as the Federal Government's 
principal steward of our Nation's living ocean and coastal resources.
    But as much as I enjoy hearing from NOAA, I must say that I find it 
odd to convene a legislative oversight hearing on several draft NOAA 
bills and fail to invite any witnesses other than NOAA to testify.
    Rest assured, I am confident that we will hear only the unvarnished 
truth from NOAA about the merits or faults of these bills. But I cannot 
believe the we would not benefit from the views and comments of 
interested parties outside of the agency.
    In addition, it remains uncertain to me why this subcommittee, or 
the Congress in general, should be considering at this time organic 
legislation to authorize the administration and organizational 
structure of NOAA.
    At present, two separate panels--the National Commission of Ocean 
Policy and the Pew Oceans Commission--are in the midst of comprehensive 
reviews of U.S. domestic ocean policy, governance and resource 
management. Both commissions are likely to produce valuable insights 
and comprehensive recommendations that could be pivotal in determining 
how best to reorganize not only NOAA, but also how to reshape the 
entire Federal Government as it applies to our future interaction as a 
society with the ocean environment.
    By these comments, it is not my intent to insinuate that the ideas 
contained in these draft bills are without merit. Nothing could be 
further from the truth. In fact, ideas such as re-authorizing the 
Hydrographic Survey Act, or authorizing an entirely new integrated 
coastal monitoring program, are laudable and worth pursuing.
    Rather, I am simply saying that we may be acting prematurely. If we 
do decide to move organic authorizing legislation for NOAA, I strongly 
suggest that we will need a more thorough vetting of these ideas to 
ensure that the subcommittee has all the facts in hand before 
proceeding.
    As always, Mr. Chairman, I look forward to working cooperatively 
and in a bipartisan fashion with you, and with the other members of 
this subcommittee, to ensure that NOAA remains the Federal Government's 
pre-eminent authority on ocean and coastal matters. Thank you.
                                 ______
                                 
    Mr. Underwood. I thought you might object.
    Mr. Gilchrest. I was thinking about objecting.
    Mr. Underwood. I want to submit Mr. Pallone's statement for 
the record.
    Mr. Gilchrest. Without objection.
    [The prepared statement of Mr. Pallone follows:]

  Statement of The Honorable Frank Pallone, Jr., a Representative in 
                 Congress from the State of New Jersey

    Mr. Chairman, I have strong concerns about the draft 
reauthorization measure for the National Oceanic and Atmospheric 
Administration (NOAA) because it does not include adequate authorizing 
text for the National Undersea Research Program (NURP). Instead, there 
is inclusion of a new mandate to authorize the Ocean Exploration 
program, a new program that duplicates the NURP mission in many 
respects. It was a shock to me that NURP did not receive much in the 
way of support in this bill.
    NURP has a long record of accomplishment that includes science-
based programs resulting in information used to form national policy on 
deep sea disposal, fisheries management and shoreline protection. NURP 
has been in existence for over 20 years but has never received formal 
reauthorization, and instead has relied on Congress to support it 
through the budget process. The six regional undersea centers 
comprising the NURP perform a major role in the nation's research 
effort, promoting the sustainable development of aquatic resources, 
global environmental change and ocean technology.
    The National Undersea Research Center for the Middle Atlantic Bight 
region is located in my district at Rutgers University. The Center, 
which was created in 1992, has focused on establishing Long-term 
Ecosystem Observatories that enable multi-disciplinary science using in 
situ observations and manipulations. A key strength of NURP is its 
partnerships with scientists and resource managers from academia, 
private research institutions and Federal, state and local agencies.
    The language that has been created for the authorization measure 
for NURP is simple and has been approved by both NOAA and the 6 
regional NURP centers. I would like an explanation for why NOAA did not 
move forward on text that was already agreed upon by all NURP regional 
centers and NOAA itself.
    In addition, formal language is needed that promotes partnering 
between NURP and the Ocean Exploration program since NOAA can save 
money if the two programs work together. The new Ocean Exploration 
program possesses several unique objectives that can complement the 
NURP mission and long record of achievement. By working more closely 
together, both programs can become a more efficient and effective asset 
for NOAA research.
                                 ______
                                 
    Mr. Underwood. Mr. Gudes, you know the National Undersea 
Research Program, NURP, was agreed upon last year by all 6 NURP 
centers and NOAA itself, that you know it was going to receive 
some attention and some priority. Don't you think it should be 
included in the reauthorization of NOAA specifically?
    Mr. Gudes. I think the bill before the Subcommittee--you 
have addressed it under ocean exploration as a generic term, if 
I understand it, which relates both to--I believe this is what 
the Subcommittee has proposed--both the ocean exploration 
program, undersea research program and actually, I think, some 
of the related programs like JASON. That is the Subcommittee's 
judgment, I think, on whether there should be subelements to 
that.
    Mr. Underwood. I appreciate that, but I am asking for what 
you think and what NOAA thinks about specifically identifying 
the NURP program.
    Mr. Gudes. I think NURP is an excellent undersea research 
program being conducted at 6 centers and has been going on 
since the late 1970's, early 1980's timeframe. I think the 
ocean exploration program that this Subcommittee helped get 
going 2 years ago--the NURP program were both complementary 
programs. I probably see the similarities between undersea 
research and ocean exploration maybe more than the two programs 
do. And I think that they are, in fact, slightly different.
    I think when we talked last year, we talked about 
nonhypothesis-driven research.
    Mr. Underwood. Just seems like yesterday.
    Mr. Gudes. You had said that you didn't quite understand 
that, and I almost said back to you I don't quite understand 
it, either, but I couldn't say that. I think there are ways of 
doing undersea research and exploration in doing the right kind 
of things that NOAA needs to do and the country needs to do, 
and there are slightly different ways of doing it. Ocean 
exploration is a little bit oriented toward going to areas to 
see what is there, but also a little bit different in terms of 
who competes. It is bringing more partnerships into the 
program. It is bringing new undersea exploration partners into 
the program.
    In the NURP program we have been funding the infrastructure 
at 6 centers. They are very solid--I can go through them, if 
you want, and I think that that helps provide the 
infrastructure and underpinning and, in fact, just to show you 
back what I said, there are a number of these initiatives and 
competitions run under the ocean exploration program which NURP 
centers are competing for and winning.
    So, for example, we will be conducting research in the 
Arctic area of Alaska and in the Gulf of Alaska and the 
University of Alaska NURP program will likely be a member of 
that and a part of that.
    We conducted exploration missions along the East Coast last 
year. University of Connecticut, Avery Point NURP Center, 
Rutgers, New Jersey NURP Center, and University of North 
Carolina-Wilmington were all part of that exploration mission. 
So I really do see them as interrelated programs.
    Mr. Underwood. Just to understand--you know, I know that 
NOAA's currently undergoing this bottom-up review. And also in 
the current environment, there is also the National Commission 
of Ocean Policy and the Pew Ocean Commission are also 
conducting in the midst of comprehensive reviews of U.S. 
Domestic policy, ocean policy governance and resource 
management. How are those efforts different or how do they 
complement yours, and how is it, in your mind, do you think we 
can make the best use of all of those efforts in the 
Subcommittee?
    Mr. Gudes. I think all of these things, first of all, are 
very positive. I think Admiral Lautenbacher said last year when 
I saw him at the Ocean Policy Commission, we do this once every 
30 years, Stratton Commission, the new commission, a good 
fundamental review, Federal-wide what we are doing, nationwide 
what we are doing. Again the Pew effort. I think this is all 
positive. It is all about the year of the oceans, it is all 
about the sort of efforts that you all have been advocating. A 
number of these are external groups of which they are looking 
in part at NOAA and telling us what they think we do well or 
don't do well or how we fit.
    The internal review--the program review is an internal 
review. It is NOAA employees coming forward and taking a look 
how we--and it goes beyond just ocean programs, all NOAA 
atmospheric ocean programs from solar forecasting to undersea 
research, how we think we fit together as an organization 
internally and a little bit looking out. So it is two sides of 
some of the same issues.
    I don't think these other groups will be looking at 
business practices, for example, which we are within NOAA, 
things like human resources.
    I talked about education. Human resources, how are we going 
to attract the kind of work force that NOAA is going to need to 
attract to be the premier scientific agency, research and 
service agency, stewardship agency in 5 years, 10 years, 20 
years as the workforce is declining. Those are the kind of 
issues that we are taking about. Probably these other 
commissions are not. So they are all related.
    Mr. Underwood. Thank you.
    Mr. Gilchrest. Thank you, Mr. Underwood. Mr. Saxton.
    Mr. Saxton. Thank you, Mr. Chairman. I would like to submit 
my statement for the record as well.
    Mr. Gilchrest. Without objection.
    [The prepared statement of Mr. Saxton follows:]

  Statement of The Honorable Jim Saxton, a Representative in Congress 
                      from the State of New Jersey

    Good afternoon Mr. Chairman and members of the subcommittee. Thank 
you to the witnesses for taking the time to be here today. I am pleased 
this hearing is being held to discuss a number of draft bills, 
including the National Oceanic and Atmospheric Administration Act of 
2002.
    I would like to express my concern however, with one provision of 
this bill. The current draft does not include adequate authorizing text 
for the National Undersea Research Program (NURP). In fact, the draft 
bill does not adequately provide for this program, which is a hallmark 
for the nation's undersea research, education, and technology 
development efforts.
    Of particular concern is the inclusion of a new mandate to 
authorize the Ocean Exploration program, a mandate that duplicates the 
NURP mission in many respects. NOAA and the Council of NURP Center 
Directors drafted authorization text for NURP last year. I respectfully 
request you consider this modification as a substitute for the current 
language in the draft bill.
    In addition, collaboration between the NURP and Ocean Exploration 
programs needs to be improved. NURP has many strengths that can be 
brought to bear on the emerging Ocean Exploration program. I have long 
been a strong supporter of the NURP program, and look forward to 
working with the Chairman and the other members of the subcommittee to 
address the concerns I have with this bill, as it is currently written.
    Thank you, and I look forward to hearing from the witnesses.
                                 ______
                                 
    Mr. Saxton. And I would also like to say there are others 
who share Mr. Underwood's concern that the current draft does 
not include adequate authorizing text for the National Undersea 
Research Program, and I have discussed this with staff, 
including John Rayfield who is sitting next to me. And my 
opening statement discusses this issue in detail. I am 
satisfied that we will be able to work this out between now and 
markup, so--
    Mr. Gilchrest. I would--I will be glad to work it out with 
Mr. Underwood, Mr. Saxton, and certainly NOAA. National 
undersea research and ocean exploration programs to me are 
extremely critical into finding out what we don't know. We 
can't set a program and create status and standards until you 
get out there to see what is out there. And I think part of 
that phenomenon is finding out about those thermal vents where 
you have these creatures that don't use sunlight to survive. 
Some extraordinary things we can find out in this--what was 
that--we can end this Congress. Congress is a human 
institution, so we have some strange phenomenon happening here 
on a regular basis, but that is to be expected, I think, 
sometimes enjoy.
    But the ocean exploration, Mr. Saxton, I want to assure you 
that I am not sure $14 million dollars that is authorized for 
that is enough. So if we can pursue that and make sure that--
the discussion we had 2 years ago was a good discussion, Mr. 
Gudes. I would certainly urge you to ensure in that bottom-up 
review that the Members of Congress at least in this Committee 
are urging you to continue that with all deliberate speed and 
all the curiosity and ingenuity that you can muster. So we will 
work with Mr. Saxton in developing the language.
    Mr. Faleomavaega?
    Mr. Faleomavaega. Thank you, Mr. Chairman. I am a little 
deaf. I was trying to figure, did you say nurd center or nerve 
center?
    I do want to echo the sentiments expressed by Mr. Saxton 
about the consolidation and whatever efforts that NOAA is 
trying to do here.
    I do have some questions to Mr. Gudes. I think I have 
introduced a bill about something to do with tsunami warning 
and wanted to see if NOAA--I know there is a tsunami center 
that has been built or constructed in Hawaii. But it provides 
only with reference to coastal States. But leaving out the 
ancillary areas--and I wanted to ask Mr. Gudes if this was 
intentional or is this an oversight? Can we be a little more 
inclusive in terms of the programs out of the tsunami program 
that is currently being implemented?
    Mr. Gudes. Congressman Faleomavaega, we run 2 tsunami 
warning centers. They are actually under the weather service 
part of NOAA. One is in Palmer, Alaska, and one is in I think 
Eva Beach in Hawaii. I believe that we do, in fact, present an 
international structure and provide tsunami warnings to the 
islands of the Pacific, just like the weather service very 
strongly works on providing weather services across the 
Pacific, but I will get back to you if I am incorrect on that.
    Mr. Faleomavaega. I would appreciate. There has also been 
consideration--and here again I am pleading ignorance about the 
global warming research, if NOAA is actively engaged in this. 
You know, my good friend from California, a distinguished 
Member of Congress who happens to chair one of the Science 
Subcommittees, described global warming as global baloney. And 
I sincerely hope that this is not NOAA's position in terms of 
the seriousness of this phenomenon or this issue and that we 
will be getting accurate scientific data to support the 
concerns about this issue. And I wanted to ask you if this is 
an ongoing program as well with NOAA.
    Mr. Gudes. Absolutely, Congressman, global change and 
climate research are among the most important programs run in 
the agency. We spend some $305 million or so on climate 
services and climate research in NOAA. It is an area where when 
people talk about atmospheric NOAA and oceanic NOAA, you can't 
make that distinction because the oceans are the drivers of the 
world's climate. And this is an area that we have been stepping 
up to for some period of time. The TAO Array across the Pacific 
by which we know El Nino, for example, started in the early 
1980's and it is something that really showed the way, if you 
will, for what can be done on a worldwide ocean-observing 
system such as the Committee is talking about.
    Mr. Faleomavaega. This is also taking sentiments expressed 
by Congressman Underwood and which I am very interested in the 
fact that probably the 2 deepest areas in the world, one is 
called the Marianas Trench and also the Tallin Trench. And I 
wanted to ask if NOAA is seriously proactive in terms of doing 
as much exploratory research. And I think if I am correct, and 
please correct me if I am wrong, these are the 2 deepest areas 
of the ocean floor. It is in the Marianas near Guam and one 
near my district in Tonga.
    Mr. Gudes. On the civil side, I believe this is correct. We 
don't have submersibles that would go that deep. I think the 
Japanese do. But Ocean Exploration and National Undersea 
Research Program are programs that are not just within the US 
EEZ. They are also looking at international areas. There is 
actually a mission going on now in the Galapagos area off of 
South America taking a look at some seafloor spreading vents, 
as the Chairman was talking about. And I must say that for me, 
I am a major advocate of NOAA playing its role and the United 
States playing its role in ocean exploration.
    I was down at the Aquarius habitat, undersea habitat in the 
Keys where men and women work undersea. It is part of the NURP 
program we were talking about, and I am absolutely supportive 
of the comments that have been made here today.
    Mr. Faleomavaega. We had a joint hearing sometime last 
year, and one of the things I came to understand and we got 
this 900-pound gorilla, It is called the U.S. Naval Research 
Laboratory that sits somewhere on the West Coast and probably 
have some here on the East Coast. And a lot of times when we do 
the research in dealing with the oceans, marine life, all of a 
sudden, it says classified. It is security. Something of this 
nature. How extensive is NOAA's efforts to make sure that 
information and knowledge or data that we get is for public 
information that is not going to compromise our national 
security? When we talk to the Navy, they don't say much about 
it.
    Mr. Gudes. Well, we wouldn't compromise national security, 
but we are an agency that works very much in an unclassified 
format. If you turn to our web site, NOAA.gov, you will see how 
much we try to get our information out to the public, schools 
and kids. We work through ocean partnership, research, 
leadership and on a day-to-day basis with the U.S. Navy. Your 
staff on the Committee here came down to the Monitor Marine 
Sanctuary in North Carolina. Great example of U.S. Navy and 
NOAA working together to recover parts of the USS Monitor which 
sank off of Cape Hatteras in about 1863 or 1862, and part of 
the marine sanctuary. The Navy brought in their salvage divers 
and a saturation environment and really a successful effort. We 
do work very closely with NAVOCEANO and Bay St. Louis, and I 
think it is a great example of what can be done when Federal 
agencies work together.
    Mr. Faleomavaega. Would you say we are not as advanced as 
Japan and other nations as far as ocean exploration is 
concerned?
    Mr. Gudes. I don't know the answer to that. I think on the 
civil side, one of the positive events that happened in the 
last few years was this Commission on Ocean Exploration--
President's Commission on Ocean Exploration and taking a look 
at what we needed to do. Certainly in NOAA I think it woke us 
up to do more, and I think that in terms of submersibles it is 
probably significant that most of the submersibles we are using 
were built in the 1960's.
    I was out on Pisces 4 with the University of Hawaii and 
went to 1,200 feet off of Hawaii to do an exploration mission. 
And many of these submersibles are 30 years old. Now they have 
been renovated, but the country really hasn't been investing in 
technology. The Aquarius habitat that I talked about again I 
think is probably 20-year-old technology and it is something we 
are taking a look a look at internally within our NURP program, 
ocean exploration program.
    [Information submitted for the record follows:]

            Question for Scott Gudes from Rep. Faleomavaega

    Question: Would you say we are not as advanced as Japan and other 
nations as far as ocean exploration is concerned?

    Answer: While the U.S. is not as advanced as other nations, we are 
making good progress in ocean exploration-related efforts.
    ``Discovering Earth's Final Frontier: A U.S. Strategy for Ocean 
Exploration,'' written in 2000 by the President's Panel on Ocean 
Exploration, described some of the issues facing ocean exploration. The 
Report described some of the challenges facing U.S. ocean exploration 
efforts compared to other nations. For example:
    <bullet> LJapan, France, and Russia have submersibles that are 
newer than U.S. vessels and which can also dive to deeper depths.
    <bullet> LJapan is the only nation with a full ocean-depth remotely 
operated vehicle (ROV) that can reach the deepest depths of the ocean.
    <bullet> LOur premier deep diving submersible, Alvin was built in 
1964. Although it is regularly overhauled and completely safe, its 
maximum depth of 4,500 meters is shallower than that of several foreign 
submersibles.
    <bullet> LIreland has mapped a larger percentage of its Exclusive 
Economic Zone than the U.S.
    The U.S. has been making progress in improving its ocean 
exploration efforts. In fiscal year 2001, we initiated a new program in 
Ocean Exploration in NOAA with an appropriation of $4 million. The 
Administration requested an increase in fiscal year 2002 to $14 
million, which Congress enacted. The Office of Ocean Exploration, in 
cooperation with its many partners, has been working to address the 
recommendations of the President's Panel. For example, the Panel 
recommended that ``The Program should include a coordinated effort to 
improve and promote ocean science education.'' One product that 
addresses this goal is the Ocean Exploration website, which presently 
attracts over 1.5 million hits per month from people of all 
backgrounds. The Office also develops lesson plans that teachers use in 
the classroom to promote a better understanding and appreciation of 
ocean science. The Office of Ocean Exploration is working presently 
with other partners from across government, industry, and academia to 
address the other recommendations found in ``Discovering Earth's Final 
Frontier: A U.S. Strategy for Ocean Exploration.''
                                 ______
                                 
    Mr. Faleomavaega. Do you think we need to increase the 
authorization for deep sea research like the submersibles? If 
you're saying we are 30 years behind, that means we are really 
behind. I remember the Cook Islands government had to solicit 
the expertise of a Norwegian research group to find out that 
there is approximately a little over $200 billion worth of 
manganese nodules in the Cook Islands and not one American firm 
or no corporate ingenuity--I thought we were a high tech 
country, but apparently we are not. And I am wanting to know 
that maybe we are not focusing properly on these kinds of 
priorities that we ought to look at.
    Mr. Gudes. The House Ocean Caucus has been very much an 
advocate of ocean research and education. I agree with all your 
comments. Every time one of these missions comes back, going 
back to the Chairman's comment, they find some new life form, 
some type of squid, coral or octopus we have not seen. When we 
go to other planets looking for life forms, on this planet we 
know there is a lot of life forms that we haven't found yet and 
I think it is exciting. Our budget actually provides for in 
NOAA about 30 some odd million, what I would call this package 
of programs, which is submersibles. I would include in that the 
ocean exploration line which is 14 million, the national 
undersea research line, which is 13; The JASON which is about 
getting out work--Bob Ballard's work and others. The vents 
program off of the West Coast; the sustainable seas 
expeditions, which is under our ocean service with Sylvia Earle 
and National Geographic. You put all that package together, 
they are doing similar type of work, which is about exploration 
and discovery.
    The last point I would like to make, what I said about 
education, part and parcel, big part of these programs is 
getting this information out to schools, out to kids, getting 
the youth of the country to take part in these missions and to 
follow these missions and create explorers of the future. I 
think that is absolutely critical.
    Mr. Faleomavaega. Thank you, Mr. Chairman, for your 
patience, and Mr. Gudes, for your patience. I say here we are 
and we are ready to go to Mars and we can't even get under the 
depths of the ocean to find out what is down there. It is 
amazing.
    Mr. Gilchrest. I would agree with your comments and I think 
all of us on this Committee would prefer to quadruple the 
budget to NOAA for all its responsibilities.
    Mr. Gudes, I would like to ask just 2 brief questions. One 
is in this bottom-up review, is NOAA evaluating the value of 
manned submersibles versus unmanned submersibles and where--
likely I would guess you are going to come up with some 
combination of the 2, but where the emphasis will be on over 
the next number of years?
    Mr. Gudes. To answer your question, no, I can say that as 
the Chairman--and there wasn't--that that wasn't addressed in 
the bottom-up review.
    Mr. Gilchrest. Is that an ongoing question for NOAA?
    Mr. Gudes. Yes. I had the great opportunity to sit with Dr. 
Robert Ballard and Dr. Sylvia Earle who are on two sides of the 
spectrum to solicit a debate on this issue a few years ago and 
I think it is sort of a bit like our space program. You can do 
a lot of things remotely very well. ROVs, AUVs are a big part 
of the equation, but there is something about capturing the 
imagination and getting people actually into the issue of 
discovery that happens with submersibles. It is really quite 
exciting. And, you know, we run a space station in NOAA along 
with the University of North Carolina-Wilmington. It is called 
the Aquarius. It is 3 miles off of Key Largo. It is in 60-
something feet and people live and work.
    Going back to the Congressman, we have NASA astronauts 
doing missions this summer to train in the Aquarius to really 
get the first space station work. And on next Monday I will be 
at the Kennedy Space Center taking part in the Link symposium 
to talk about NASA and NOAA working together using space 
exploration and robotics and technology and ocean exploration. 
So it is an exciting area, and I do not know where it comes up. 
I think both are part of the equation.
    Mr. Faleomavaega. Would the Chairman yield? I just wanted 
to ask Mr. Gudes, am I correct to presume that the Navy does 
have the most modern up-to-date submersibles now in service?
    Mr. Gudes. I would like to get back to you on that with one 
of our experts like Craig McLean, the head of Ocean 
Exploration, to give you a better assessment. There was a 
national undersea civil side assessment done a few years ago 
which I can provide the Subcommittee. I don't know in the 
unclassified world in the Navy how that compares.
    [Information submitted for the record follows:]

            Question for Scott Gudes from Rep. Faleomavaega

    Question: Mr. Gudes, am I correct to presume that the Navy does 
have the most modern up-to-date submersibles now in service?

    Answer:
    <bullet> LThe Navy operates submersibles that can be used for 
undersea research. These include the nuclear powered NR-1 and the USS 
Dolphin (AGSS 555) a diesel-electric submarine. Their maximum operating 
depths are 2,375 feet (724 meters) and 3,000 feet (915 meters), 
respectively. These submersibles are used for both civilian and 
military research activities.
    <bullet> LThe deepest diving research submersible owned by the 
Navy, and operated by WHOI, is the DSV Alvin that has a depth 
capability of 14,765 feet (4,500 meters) and conducts approximately 100 
dives/year on mostly non-military related projects. Studies are 
underway to extend the Alvin depth to 21,325 feet (6,500 meters). The 
Navy retired the DSV Turtle and DSV Sea Cliff several years ago.
    <bullet> LWhile these submersibles were originally launched decades 
ago, they have been overhauled and retrofitted many times with up-to-
date equipment and devices for conducting undersea operations. France, 
Japan, and Russia operate submersibles that have a deeper depth 
capability than Alvin, and their deep sea research capability, other 
than for depth, approaches that of the Navy deep submergence vehicles.
                                 ______
                                 
    Mr. Gilchrest. The other question--and I appreciate that 
response and certainly, given the budget constraints, the most 
effective use of those dollars for manned and unmanned 
submersibles, maybe the unmanned would be the data gathered for 
better understanding of the currents and the various aspects of 
the ecosystems for the purpose of understanding the fisheries 
and the pure exploration for the wonder and the vision that 
humans can supply would be the manned submersibles.
    The other question, Scott, is a plan for the U.S. portion 
of global ocean observing system. We would like to move forward 
with that, but we really don't want to move forward unattached 
to your ideas. So if you could give us some idea when your plan 
would be vetted so that we can incorporate it into our 
legislation, we would really appreciate it.
    Mr. Gudes. I think that is a good tie-together, Mr. 
Chairman, as you talk about the ecosystems. It isn't just about 
the submersible work we talked about. It is about the overall 
ocean observing systems, really understanding the whole 
ecosystem. And I probably should have focused on that as much 
as I did about actually looking at ROVs and submersibles. We 
are in the process of generating--both looking at coastal-
observing systems, ocean-observing systems, global ocean-
observing systems. It is an interagency effort. A draft of the 
plan should be out by mid-June and is scheduled, I am told, to 
be by the end of this summer. It will lay out a preliminary 
architecture of what a system would look like. I believe this 
goes back to the science advisor to provide to--I know a bit 
about it. It is really talking about the things we need to 
measure, the type of measurements we need to get both in the 
coastal regime as well as the deep oceans, and there is a 
difference in the products and uses and the type of 
technologies and some sense of how dense those observing 
systems should be. And that is, I think, an excellent effort.
    Mr. Gilchrest. And then synthesize all the data.
    Mr. Gudes. Data is in all of our programs, I think. Whether 
we are talking satellite systems, NOAA has come to realize you 
got to do end-to-end planning, that getting that data, 
understanding how you are going to use it and store it and get 
it out to the users is absolutely critical, has to be on the 
front end.
    Mr. Gilchrest. Thank you very much. Did you have a follow-
up question, Mr. Underwood?
    Mr. Underwood. Thank you, Mr. Chairman. Just on the 
question--on the issue raised by the Chairman on the global 
ocean-observing system implementation plan and the integrated 
coastal ocean observation system. Of course, it goes without 
saying that I am hoping that the islands of the Pacific is 
given adequate attention in that effort.
    Mr. Gudes. Absolutely, Congressman. Absolutely, we take our 
responsibilities in our programs in the Western Pacific very 
seriously.
    I should have mentioned earlier, this is normally looked 
upon as a Science Committee issue, but I talk sometimes here 
about satellites. We are actually going to be activating and 
moving one of our geostationary satellites to the west to cover 
Guam and Japan because there are some issues with Japanese GMS 
satellite coverage. It is what we call our GOES-9 satellite, 
and we are going to be working with the Japanese building a 
GOES receiver in Alaska. So we will actually be moving to help 
them provide that coverage, because usually in Guam and Japan 
and East Asia, it would be the Japanese user system.
    But we absolutely do take that very seriously in all of our 
programs.
    Mr. Underwood. And when you do then, maybe you can talk to 
the house into adapting its BlackBerry system so I can access 
the BlackBerry in Guam, too, because, you know, I feel like the 
whole House is discriminating against me, because everyone else 
can access their BlackBerry in their home district.
    I have just one more point--
    Mr. Gilchrest. We don't have a BlackBerry system on the 
Eastern Shore of Maryland. My BlackBerry has never been turned 
on. It sits on my desk upstairs, and it doesn't work over there 
on the Eastern Shore.
    Mr. Underwood. Just last on the--this is out of scope of 
the Subcommittee, but on the National Weather Service, on the 
planes going into hurricanes, you know, it is my sincere hope 
that those planes go into typhoons once in a while. We get 60 
to 70 storms per year on the other side of the dateline, and 
almost all of them pass in or around Guam, the Northern 
Marianas or the Federated States.
    Mr. Gudes. Yes, sir. We are always looking at--actually, 
that is one of the things I do in my job as Deputy Under 
Secretary, fleet allocation; and I can tell you there are 
always more demands on the two P-3s we have in G-4 than--but I 
was here when you were talking to the Admiral, and I understand 
that issue very well of the Western Pacific, and I will 
continue to look into that, sir.
    Mr. Underwood. Thank you.
    Mr. Gilchrest. Thank you, Mr. Underwood.
    And we will probably put into one of these undersea 
research programs a line about how to use that research and 
expiration to eliminate the brown tree snake in Guam. There 
must be some connection there with that.
    Mr. Gudes. Drown them.
    Mr. Gilchrest. OK. Encourage those typhoons to hit Guam 
more often. You can strike that for the record. Whoever is 
typing that down, though, it is not a good thing to say.
    We appreciate your ongoing effort, Mr. Gudes, and we look 
forward to working with you over the next couple of weeks, and 
perhaps when the draft is ready, we can take a look at it and 
model some of our language after your draft plans. But we look 
forward to working with you.
    Mr. Gudes. Us, too, Mr. Chairman. And let me just thank 
this Subcommittee again for your leadership and your interest 
in our programs; and on behalf of the country, we and--all of 
our NOAA employees, we really do appreciate it. Thank you.
    Mr. Gilchrest. Good luck. Thank you.
    We will now go back to the--we are on Panel III: Mr. 
Mitchell Ellis, Chief of the Branch, Wildlife Resources, 
National Wildlife Refuge System; and Mr. Frank Dokter, 
President, Walter's Camp, Inc.
    Mr. Ellis, is anybody here from BLM that would like to sit 
up at the table?
    Mr. Ellis. Yes, there is actually.
    Mr. Gilchrest. Gentlemen, thank you. We appreciate you 
traveling across the continent to visit with us today.

STATEMENT OF MITCHELL R. ELLIS, CHIEF OF THE BRANCH OF WILDLIFE 
   RESOURCES, NATIONAL WILDLIFE REFUGE SYSTEM, U.S. FISH AND 
                        WILDLIFE SERVICE

    Mr. Gilchrest. And, Mr. Ellis, welcome. You begin.
    Mr. Ellis. Thank you. Mr. Chairman and members of the 
Subcommittee, I am Mitchell Ellis, Chief of the Branch of 
Wildlife Resources for the National Wildlife Refuge System. I 
appreciate the opportunity to testify today in support of H.R. 
3937, which will revoke a small portion of Public Land Order 
3442--let me start over.
    I appreciate the opportunity to testify today in support of 
H.R. 3937, which will revoke a small portion of the original 
Public Land Order 3442, dated August 21, 1964. This Public Land 
Order withdrew approximately 16,600 acres of public domain 
lands along the Colorado River in California and Arizona for 
the creation of Cibola National Wildlife Refuge. However, the 
withdrawal erroneously included a small area of approximately 
140 acres in Imperial County at the southern boundary of the 
California portion of the refuge.
    Prior to 1964, this property fell under the jurisdiction of 
the Bureau of Land Management, and beginning in 1962, the BLM 
had issued a permit for public recreation concession on the 
lands now in question. Because the U.S. Fish and Wildlife 
Service and the BLM failed to effectively address this mistake 
in legal descriptions on the ground, the BLM continued to renew 
the original permit, and the recreational concession has 
continued unbroken to the present time, although the BLM lease 
did expire in April of this year.
    The concession and location are commonly known as Walter's 
Camp, and it consists of a recreational vehicle park, a small 
marina, a store; and the BLM estimates that Walter's Camp 
receives about 11,000 visitors per year.
    The National Wildlife Refuge System Administration Act 
requires that all uses of refuge lands be compatible with the 
purposes for which the refuge was established. Section 4 (a) of 
the Act and section 204 (j) of the Federal Land Policy and 
Management Act both prohibit the Secretary of the Interior from 
revoking withdrawals of land from National Wildlife Refuges. 
For this reason, congressional action is required to remove 
these lands from the refuge system.
    Given the fact that the concession is not directly related 
to wildlife, it is highly unlikely that the service could find 
it to be compatible with refuge purposes. Absent legislative 
action, we would most likely be forced to evict the 
concessionary should these lands remain in the refuge. The 
Department has been exploring alternatives to address this 
issue since the error was discovered in 1999.
    Since the inclusion of these lands in the Public Land Order 
was certainly a mistake, due to the prior existence of a 
concession, we believe the most equitable solution is removal 
of the lands from the refuge. There are no threatened or 
endangered species inhabiting the 140 acres, and the area in 
question is, at best, marginal wildlife habitat. Removal of the 
140 acres of land from the refuge would allow for the 
continuation of the recreational concession, while still 
affording more than adequate protection for the nearest 
significant wildlife habitat feature, Three Fingers Lake.
    We believe that withdrawal of these lands will benefit all 
parties involved--the concessionary, the service, the BLM and, 
ultimately, the public. For this reason, we support the bill 
and urge prompt action on enactment of H.R. 3937.
    Mr. Chairman, that concludes my statement. I would be happy 
to answer any questions you might have.
    Mr. Gilchrest. Thank you, Mr. Ellis.
    [The prepared statement of Mr. Ellis follows:]

Statement of Mitch Ellis, Chief, Branch of Wildlife Resources, National 
 Wildlife Refuge System, Fish and Wildlife Service, U.S. Department of 
                              the Interior

    Mr. Chairman and Members of the Subcommittee, I am Mitch Ellis, 
Chief of the Branch of Wildlife Resources, National Wildlife Refuge 
System. I appreciate the opportunity to testify today in support of 
H.R. 3937, which will revoke a small portion of Public Land Order 3442, 
dated August 21, 1964. This Public Land Order withdrew approximately 
16,600 acres of public domain lands along the Colorado River in 
California and Arizona for the Cibola National Wildlife Refuge. The 
withdrawal erroneously included a small area of approximately 140 acres 
in Imperial County at the southern boundary of the California portion 
of refuge.
    Prior to 1964, this property fell under the jurisdiction of the 
Bureau of Land Management (BLM) and, beginning in 1962, the BLM issued 
a permit for a public recreation concession on the lands now in 
question. Because neither the U.S. Fish and Wildlife Service (Service) 
nor the BLM recognized the mistake in legal descriptions on the ground, 
the BLM continued to renew the original permit and the recreational 
concession use has continued, unbroken, to the present time, although 
the BLM lease did expire in April 2002. The concession and location are 
commonly know as ``Walter's Camp,'' which consists of a recreational 
vehicle park, a small marina, and a store, and the BLM estimates that 
Walter's Camp receives 11,000 visitors per year.
    The National Wildlife Refuge System Administration Act (Act) 
requires that all uses of refuge lands be compatible with the purpose 
for which the refuge was established. Section 4(a) of the Act and 
section 204(j) of the Federal Land Policy and Management Act both 
prohibit the Secretary of the Interior from revoking withdrawals of 
land within National Wildlife Refuges. For this reason, congressional 
action is required to remove these lands from the Refuge System.
    Given the fact that the concession is not directly related to 
wildlife, it is highly unlikely that the Service could find it to be 
compatible with refuge purposes. Absent legislative action, we will 
most likely be forced to evict the concessionaire should these lands 
remain in the refuge. The Department has been exploring alternatives to 
addressing this issue since the error was discovered in 1999.
    Since the inclusion of these lands in the Public Land Order was 
certainly a mistake, due to the prior existence of the concession, we 
believe the most equitable solution is removal of the lands from the 
refuge. There are no listed species inhabiting the 140 acres and the 
area in question is, at best, marginal wildlife habitat. Removal of the 
140 acres of land from the refuge would free-up the area necessary for 
the continuation of the recreational concession, while still affording 
more than adequate protection for the nearest significant wildlife 
habitat feature, Three Fingers Lake.
    We believe that withdrawal of these lands will benefit all parties 
involved--the concessionaire, the Service, the BLM and, ultimately, the 
public. For this reason, we support the bill and urge prompt action on 
enactment of H.R.3937.
    Mr. Chairman, this concludes my statement and I am happy to answer 
any questions you might have.
                                 ______
                                 
    Mr. Gilchrest. Mr. Dokter.

    STATEMENT OF FRANK DOKTER, PRESIDENT, WALTERS CAMP, INC.

    Mr. Dokter. Thank you, Mr. Chairman, and I am kind of awed 
by all of this. This is my first time in Washington, D.C. so I 
am just going to make this statement, and I will probably just 
read it, because I am a little bit nervous.
    Mr. Gilchrest. That is fine, Mr. Dokter. You are doing very 
well for your first time here.
    Mr. Dokter. Mr. Chairman and members of the Committee, 
thank you for holding this hearing on this very important 
matter and please allow me to introduce myself. My name is 
Frank Dokter, and I represent Walter's Camp. It is a small mom-
and-pop campground and RV park, owned and operated by my 
family, and we are located on the California side of the 
Colorado River. And although Walter's Camp has been here since 
the early 1920's and operated as a business since 1962, my 
family began operating this business in 1978; and we operate on 
a BLM concession which we have--I left a copy for you for your 
review.
    I would just kind of like to tell you a little bit about 
what we do. We offer a safe and fun atmosphere for people of 
all ages, and each is welcome to enjoy hunting and fishing and 
camping and rock-hounding and bird-watching, canoeing and 
boating. It is all on the Colorado River. It is an excellent 
place to raise kids, and we do a lot of fun stuff, and all of 
that while we enjoy some of the most beautiful scenery God ever 
created. It is just a beautiful place.
    We provide all services, including backup for our local law 
enforcement; and when needed, the U.S. Marines are kind enough 
to provide us with the personnel and the helicopter for 
evacuation of injured persons or something like that. And it is 
really great to be able to work with the Marines on those 
situations. And due to our remote location, we are the only 
source of food and fuel and drink 40 miles upriver, about 40 
miles downriver. So we are kind of out in the toolies.
    Although it has been hard work to bring Walter's Camp where 
it is today, my family and I have had many rewards, including 
watching many small children grow up into fine young people. 
And I have seen the satisfaction in families that can--the 
satisfaction that can only be gained from experiencing some of 
America's great outdoors and wild places. And the personal 
relationships that I have developed over the years are 
invaluable. I have more godchildren than I have children, and 
these families have kind of grown up with me over the years 
that I have been there.
    Walter's Camp was first authorized in 1962, but in 1964, 
the Public Land Order that--3442 that we discussed for the 
Cibola Wildlife Refuge, that happened. It was like 16,000 
acres. And the problem is that when they did that, they 
accidentally included this Walter's Camp property into that 
refuge, and the area was not recognized at the time by the BLM 
or the Fish and Wildlife Service; and therefore, the BLM 
continued to renew my concession contract.
    And this land was thought to have been withdrawn from the 
refuge many years ago and the former refuge manager even placed 
a fence around the refuge boundary and physically excluded 
Walter's Camp. However, the problem only came to light in 
recent months, and now the BLM cannot continue to renew my 
permit to operate until the matter is corrected.
    Both the BLM and the Fish and Wildlife Service agree that 
Walter's Camp was erroneously included in the refuge, but say a 
legislative fix is needed to enable my family to continue 
renewing our permit and to remain in business.
    Several months ago, I asked help from Congressman Duncan 
Hunter, and after hearing about my situation, he agreed to 
pass--help pass this bill correcting Public Land Order 3442 by 
withdrawing the 140 acres from Walter's Camp--withdrawing the 
140 acres of Walter's Camp from the public Cibola National 
Wildlife Refuge.
    And from what I understand, the Fish and Wildlife Service 
and BLM says that Walter's Camp has little or no habitat or 
wildlife value, and I would like to call to your attention, 
there are 78 private residences that border this property, and 
there are development plans for a 60 to 80 more of the same 
such residences, and some of those are now in the construction 
stages in Imperial Valley. They are right next to Walter's 
Camp.
    And, Mr. Chairman, we provide many services that will be 
lost without the passage of H.R. 3937. Local residents and 
government agencies need these services, and all agree that we 
do not harm any of the wildlife habitat, and we are great 
stewards of this land that we operate on; and we would like to 
continue doing so--or doing what we have done for many, many 
years, and that is introducing many families to outdoor life.
    And now I would like to take this opportunity to thank 
Congressman Duncan Hunter for all of his time and energy and 
work. I appreciate him introducing this bill that we all need 
so very much.
    And finally, Mr. Chairman, thank you for having this 
hearing, and thanks to the Committee for all of your attention. 
And I hope that when all is said and done, you can all come and 
go fishing or hunting with me.
    [The prepared statement of Mr. Dokter follows:]

       Statement of Frank Dokter, President, Walter's Camp, Inc.

    Mr. Chairman and Members of the Committee, thank you for holding 
this hearing on this important matter. Please allow me to introduce 
myself. My name is Frank Dokter. I represent Walter's Camp, Inc., a 
small ``mom and pop'' campground and r.v. park owned and operated by my 
family on the California side of the Colorado River. Although Walter's 
Camp has been here since the early 1920's, and operated as a business 
since 1962, my family began operating the business in 1978. I operate 
on B.L.M. concession contract CAAZCA 6637, which I have included a copy 
of for your review.
    We offer a safe and fun atmosphere for people of all ages. All are 
welcome to enjoy fishing, hunting, water-skiing, rock-hounding, hiking, 
birdwatching, canoeing and boating, all while enjoying some of the most 
beautiful scenery God ever created. We provide all services, including 
back-up for law enforcement. When needed, the U.S. Marines are kind 
enough to provide rescue personnel and a helicopter. Due to our remote 
location, we are the only source of fuel, food, and drink for more than 
40 miles up river or down river.
    Although it has been hard work to bring Walter's Camp to where it 
is today, my family and I have had many rewards, including watching 
many small children grow into fine young people over the years. I have 
seen the satisfaction in families that can only be gained from 
experiencing some of America's great wild places. The personal 
relationships I have developed over the years have been invaluable. 
Believe it or not, I now have more God children than I have children.
    Walter's Camp was first authorized in 1962, but in 1964 Public Land 
Order 3442 established the Cibola National Wildlife Refuge by 
withdrawing more than 16,000 acres along the Colorado River. The 
problem is that when they did that they accidentally included Walter's 
Camp in the Refuge. The error was not recognized at that time by the 
B.L.M. or the Fish and Wildlife Service, and therefore, the B.L.M. 
continued to renew my concession contract. This land was thought to 
have been withdrawn from the Refuge many years ago, and the former 
refuge manager even placed a fence around the refuge boundary about 13 
years ago, physically excluding Walter's Camp from the Refuge.
    However, the problem only came to light in recent months, and now 
the B.L.M. cannot continue to renew my permit to operate until the 
matter is corrected. Both the B.L.M. and Fish and Wildlife Service 
agree that Walter's Camp was erroneously included in the Refuge, but 
say a legislative fix is needed to enable my family to continue 
renewing our permit and remain in business.
    Several months ago, I asked for helping from my Congressman, Duncan 
Hunter. After hearing about my situation, he agreed to help pass a 
bill, correcting Public Land Order 3442 by withdrawing the 140.32 acre 
Walter's' Camp from the Cibola National Wildlife Refuge.
    From what I understand, the Fish and Wildlife Service and B.L.M. 
says that Walter's Camp has little or no habitat or wildlife value. 
There are 78 private residences bordering this property with 
development plans for 60 to 80 more, some of which are now in 
construction stages. Mr. Chairman, we provide many services that will 
be lost without passage of H.R. 3937. Local residents and government 
agencies need these services, and all agree we do not harm any wildlife 
or habitat. We are great stewards of what land we operate on, and would 
like to continue doing what we have done for many years, introducing 
many families to outdoor life.
    I would like to take this time to thank Congressman Duncan Hunter 
for all his time, energy and work. I appreciate him introducing this 
bill that we all need very much.
    Finally, thank you again for having this hearing Mr. Chairman, and 
thanks to the Committee members for your attention. I hope when all is 
said and done with this, you can all find time to come visit Walter's 
Camp when you get a chance.

    [An attachment to Mr. Dokter's statement follows:]
    [GRAPHIC] [TIFF OMITTED] 79659.001
    
                                ------                                

    Mr. Gilchrest. Thank you, Mr. Dokter. We will take a ride 
on the canoe down the Colorado River and buy a sandwich at your 
spot.
    Mr. Dokter. Great.
    Mr. Gilchrest. The gentleman from BLM, is there any comment 
you would like to make while you are here?
    What is your name, sir?
    Mr. Larson. Lee Larson, I am here in our Washington office, 
working concessions and permits for BLM.
    We just wanted to say that we are in support of the bill, 
and we have had a good relationship with Mr. Dokter; and that 
is why we have had a long-term lease with him and look forward 
to--if passage of this, we would be able to give him another 
long-term lease.
    Mr. Gilchrest. Was there any specific reason that when the 
fence was put up, the fence excluded--the fence around the 
wildlife refuge excluded this camp, Mr. Dokter's camp?
    Mr. Ellis. Well, Mr. Chairman, the record is a little fuzzy 
on that matter. There were some--
    Mr. Gilchrest. Was it an understanding that that was 
actually BLM land as opposed to part of the Fish and Wildlife 
Refuge?
    Mr. Ellis. For all of those years, it was actually thought 
that the boundary was north of Walter's Camp, and so that was 
probably why the fence was put there.
    Mr. Gilchrest. And the need for the legislation is that 
Fish and Wildlife can't issue the type of permit on their land 
that BLM can issue on their land? That is the fundamental issue 
here?
    Mr. Ellis. That is correct. Our regulations wouldn't allow 
us to find that type of a concession compatible with the 
purposes for that particular--
    Mr. Gilchrest. OK.
    Mr. Ellis. Our compatibility standards are not only based 
against the mission of the refuge system, but also the 
individual purposes for each refuge. And so looking at Cibola's 
purpose statement--it is strictly for wildlife--it would be 
very difficult to pass a compatibility test; and we feel it 
would be best all around to simply transfer the land back.
    Mr. Gilchrest. How long has this area been--there is about 
17,000 aches in the wildlife refuge?
    Mr. Ellis. The refuge was established in 1964.
    Mr. Gilchrest. And prior to that, was it BLM land?
    Mr. Ellis. Yes, it was, although portions of the area along 
the Colorado were withdrawn for reclamation purposes by the 
Bureau of Reclamation for the Water Storage Act in that area.
    Mr. Gilchrest. I see. How much land in that vicinity is BLM 
land?
    Mr. Ellis. I would have to defer to my colleague here.
    Mr. Larson. Just the acreages that we had the leases on, 
that is all that really came back to BLM. Basically, the Bureau 
of Reclamation gave up their leases that were already occupied, 
to us, and we have been managing those leases--
    Mr. Gilchrest. So other than Mr. Dokter's camp--or Walter's 
Camp, BLM doesn't have--or own much other land out there?
    Mr. Larson. No, not in that area. Basically, anything 
that--through a withdraw program that the Bureau of Land 
Management has, if the purpose of the withdrawal is no longer 
needed, then through the withdrawal program, that comes back to 
BLM.
    Mr. Gilchrest. I see.
    Mr. Larson. Comes back to the public domain.
    Mr. Gilchrest. Who takes title of the property once the 
transfer takes place?
    Mr. Ellis. Title of the property, of course, will remain in 
the United States of America, but will be administered by the 
Bureau of Land Management.
    Mr. Gilchrest. I see. Thank you very much.
    Mr. Underwood.
    Mr. Underwood. Thank you, Mr. Chairman. You asked most of 
the questions I was going to ask, but--
    Mr. Gilchrest. I am sorry.
    Mr. Underwood. That is OK.
    Mr. Dokter, how long has your family been there?
    Mr. Dokter. We have been there since early 1978.
    Mr. Underwood. Early 1978?
    Mr. Dokter. Yes, sir.
    Mr. Underwood. And how many people visit the camp on an 
annual basis?
    Mr. Dokter. Well, I guess it depends on who you are talking 
to, but we will go with 11- to 20,000. It is kind of hard to 
say, because sometimes we have some of the schools, Boy Scouts 
of America and that, that come in in busloads. So it is kind of 
hard to count heads.
    You know, they put little counters out there on the road 
sometimes, and so, you know, I wouldn't butt heads with anybody 
as to the total amount, but I would say anywhere from 11- to 
30,000 a year.
    Mr. Underwood. And how much would you say you have--your 
family has invested in terms of the area? What have you--
    Mr. Dokter. Actually, I have invested my lifetime there.
    Mr. Underwood. Well, I know.
    Mr. Dokter. Probably upwards of a million dollars.
    Mr. Underwood. Maybe this is a question, Mr. Larson, for 
BLM. Is this kind of an unusual arrangement, or is this fairly 
typical for BLM?
    Mr. Larson. Well, I wouldn't want to say it was unusual. We 
don't want to say that we made too many errors with the survey, 
things of legal descriptions, but--so unusual. But basically 
this bill has an opportunity to make it right and get it back 
the way it ought to be and the way it should have been.
    Mr. Underwood. And I certainly appreciate that sentiment.
    Now, if the bill passes, the property is still owned by the 
government. Do you undergo periodic reviews as to how this 
property is going to be utilized? Is Mr. Dokter going to have--
you know, he has invested his lifetime in it. Is he just going 
to use that as leverage?
    Mr. Larson. Yes. What happens is that when a lease is up, a 
process begins at least a year ahead of that time period to 
renew that lease and to see if the conditions have changed and 
see if there is expansion needed or whatever, those kinds of 
things; and the need for these things are continually addressed 
through our land use planning process.
    Mr. Underwood. And how long is the current lease for?
    Mr. Larson. The current one that they had was 20 years, and 
we have just been giving 1-year extensions until this gets 
resolved.
    Mr. Underwood. So it is a 1-year lease?
    Mr. Larson. It is on a 1-year lease, yes.
    Mr. Underwood. And what are the conditions on it? What 
would Mr. Dokter have to do to lose that lease?
    Mr. Larson. To lose it?
    Mr. Underwood. Yeah.
    Mr. Larson. Basically, there is a--
    Mr. Underwood. Not that he would do anything to lose it. I 
am just asking in a hypothetical way.
    Mr. Larson. As a contract, there are a number of 
stipulations that he has to conform to that have to do with 
taking care of the land and public health and safety, those 
kinds of things.
    If some of those kinds of trust things are broken, then we 
would have to seriously consider whether or not we want to 
renew that and let it go to someone else. And usually the 
flagrant situations involve something to do with hazards. It is 
safety and public health and those kinds of things.
    Mr. Underwood. Mr. Ellis, the access road to the camp area, 
does that go through Fish and Wildlife or BLM, and is there any 
thought as to how that would be altered by this legislation?
    Mr. Ellis. The access road, it will continue to go across 
refuge property; however, we don't anticipate that being a 
problem. We actually use that access road to reach the Three 
Fingers area, which is part of the refuge. We have regulations 
in place that prohibit off-roading, and have been fairly 
successful in enforcing those. So I don't think the road would 
be a problem.
    Mr. Underwood. Do people--Mr. Dokter, do people like to go 
off-roading in the area?
    Mr. Dokter. Yes, sir. Actually, you know, because there is 
a declining portion of our country that you can do that 
anymore, there is a big call for it, yes, there is. But not in 
that area. There are specific roads that you can take, and they 
are pretty much outlined by either BLM or Fish and Wildlife 
Service. And for the most part, people that do come out there 
conform to those things. They are not--you know, we don't get a 
whole lot of renegades out there.
    Mr. Underwood. I see. Now, about what is the total acreage 
that the camp currently utilizes?
    Mr. Dokter. We occupy about 34 acres right now. And there 
is a need for expansion.
    Mr. Underwood. So the bill calls for 140 acres. Is that 
correct? Am I correct in that?
    Mr. Larson. That is correct.
    Mr. Underwood. So that is to cover anticipated growth?
    Mr. Dokter. We haven't discussed that with the Office of 
the BLM yet. That would be a portion of it that we would like 
to use.
    Mr. Underwood. I see. OK. Thank you very much.
    Thank you.
    Mr. Gilchrest. Thank you, Mr. Underwood, Mr. Dokter, Mr. 
Ellis and Mr. Larson--especially Mr. Dokter.
    Well, good luck with your careers with the Federal 
Government, Mr. Ellis and Mr. Larson--
    Mr. Larson. Mr. Chairman, I just wanted to make one thing 
clear. Before, when you asked me about, did we have any other 
lands around there, I was speaking of the withdrawals of a 
reclamation. But you probably already know that BLM does have a 
lot of land in that area. Just so you know, it is not like an 
isolated parcel; it would be joined by BLM land.
    Mr. Gilchrest. And BLM land in that area surrounds the 
refuge?
    Mr. Larson. That's correct, yes. All around the area there 
is--
    Mr. Gilchrest. Do you have an estimate as to the number of 
acres in that--
    Mr. Larson. No, I don't, but it is something we can get for 
you if you need it.
    Mr. Gilchrest. A thousand, 500?
    Mr. Larson. Probably more.
    Mr. Gilchrest. More. So Walter's Camp is not about to be 
marginalized by Wal-Marts?
    Mr. Larson. No, absolutely not.
    Mr. Gilchrest. Great. All right.
    Thank you all, gentlemen, very much. And I think Mr. Hunter 
is going to take Mr. Dokter out for dinner tonight, I would 
hope.
    Mr. Dokter. Boy. I would like that.
    Actually, I did enjoy lunch with Mr. Hunter, and I 
appreciate that.
    Mr. Gilchrest. Oh, that is great. Enjoy your stay in 
Washington, sir. You did a nice job in your testimony.
    Thank you all very much. The hearing is adjourned.
    [Whereupon, at 3:23 p.m., the Subcommittee was adjourned.]

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
